Audit Report




OIG-09-032
SAFETY AND SOUNDNESS: Material Loss Review of IndyMac
Bank, FSB
February 26, 2009

 This report was reposted on March 4, 2009, to reflect a change
 in the text on page 24, since the original version was posted on
 February 26, 2009. The original version of the report incorrectly
 stated “IndyMac’s internal review found several problems,
 including (1) a $517 million bridge loan for which an appraisal
 was not obtained….” The report should have stated $517,000
 instead of $517 million. This correction does not affect any of the
 findings, conclusions, or recommendations contained herein.

Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

        Results in Brief ....................................................................................... 2

        Causes of IndyMac’s Failure..................................................................... 6

            High Risk Business Strategy and Aggressive Growth ..............................                      6
            Lack of Core Deposits ........................................................................        9
            Inadequate Loss Reserves ..................................................................          10
            Unsound Underwriting Practices...........................................................            11
            Impact of Senator Schumer’s Letter on the Thrift ...................................                 12

        OTS’s Supervision of IndyMac.................................................................. 14

            OTS Conducted Regular and Timely Examinations but Did Not
            Always Address Key Areas of the Thrift................................................               15
            Concerns About Nontraditional Loans ...................................................              18
            OTS Did Not Require Correction of IndyMac’s Poor Loan
            Underwriting......................................................................................   21
            OTS Did Not Issue an Enforcement Action Until June 2008.....................                         26
            OTS Should Have Taken Prompt Corrective Action Earlier .......................                       29
            OTS’s Lessons Learned Review............................................................             30

        Concluding Remarks and Recommendations ............................................... 33

Appendices

    Appendix     1:     Objectives, Scope, and Methodology ......................................                37
    Appendix     2:     Background..........................................................................     40
    Appendix     3:     Glossary of Terms ................................................................       46
    Appendix     4:     Chronology of Events ............................................................        55
    Appendix     5:     OTS InydMac Examinations and Enforcement Actions ...............                         63
    Appendix     6:     Examples of Delinquent Loans and Underwriting Weaknesses ....                            71
    Appendix     7:     Management Response .........................................................            75
    Appendix     8:     Major Contributors To This Report ..........................................             78
    Appendix     9:     Report Distribution................................................................      79




                        Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                              Page i
Abbreviations

  ALLL             Allowance for Loan and Lease Losses
  ARM              Adjustable Rate Mortgage
  CEO              Chief Executive Officer
  FDIC             Federal Deposit Insurance Corporation
  FHLB             Federal Home Loan Bank
  GSE              Government Sponsored Enterprise
  HBD              Home Builders Division
  HCL              Home Construction Lending
  IndyMac          IndyMac Bank, FSB
  IPA              Independent Public Accountant
  LTV              Loan to Value
  MOU              Memorandum of Understanding
  MRBA             Matters Requiring Board Attention
  OIG              Department of the Treasury Office of Inspector General
  OTS              Office of Thrift Supervision
  PCA              Prompt Corrective Action
  ROE              Report of Examination
  USPAP            Uniform Standard of Professional Appraisal Practice




                Material Loss Review of IndyMac Bank, FSB (OIG-09-032)      Page ii
                                                                           Audit
OIG
The Department of the Treasury
                                                                           Report
Office of Inspector General




                  February 26, 2009

                  John M. Reich, Director
                  Office of Thrift Supervision

                  This report presents the results of our review of the failure of
                  IndyMac Bank, FSB (IndyMac) of Pasadena, California and the
                  supervision of the institution by the Office of Thrift Supervision
                  (OTS). Our review was mandated under section 38(k) of the
                  Federal Deposit Insurance Act, as amended. OTS closed IndyMac
                  on July 11, 2008 and named the Federal Deposit Insurance
                  Corporation (FDIC) as conservator. As of December 31, 2008,
                  FDIC estimated that IndyMac’s failure would cost the Deposit
                  Insurance Fund $10.7 billion.

                  Section 38(k) requires that we determine why IndyMac’s problems
                  resulted in a material loss to the insurance fund, review OTS’s
                  supervision of IndyMac, including implementation of the prompt
                  corrective action (PCA) provisions of section 38, and make
                  recommendations for preventing any such loss in the future.
                  Section 38(k) also requires that we issue a report within 6 months
                  from when the loss becomes apparent.

                  We also wish to note that we are performing a separate audit of
                  the circumstances surrounding a questionable May 2008 capital
                  infusion by IndyMac’s holding company. We provided a status
                  report of this audit to former Secretary Paulson in a memorandum
                  dated December 18, 2008. We also informed the Department of
                  the Treasury’s congressional oversight committees about this
                  matter.

                  We conducted our fieldwork from September 2008 through
                  December 2008 at OTS’s headquarters in Washington, DC; OTS’s

                  Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 1
               regional office in Daly City, California; and IndyMac’s headquarters
               in Pasadena, California. We reviewed the supervisory files and
               interviewed key officials involved in the regulatory, supervisory,
               and enforcement matters. Appendix 1 contains a more detailed
               description of our material loss review objectives, scope, and
               methodology. Appendix 2 contains background information on
               IndyMac and OTS’s thrift supervision processes. We also provide a
               glossary of terms as appendix 3 (various terms when first used
               throughout the report are underlined and hyperlinked to the
               glossary). A chronology of significant events related to IndyMac
               and supervision of the thrift is provided in appendix 4. Appendix 5
               shows OTS’s IndyMac examinations and enforcement actions from
               2001 through 2008. Appendix 6 contains examples of delinquent
               loans and underwriting weaknesses.


Results in Brief
               The primary causes of IndyMac’s failure were largely associated
               with its business strategy of originating and securitizing Alt-A loans
               on a large scale. This strategy resulted in rapid growth and a high
               concentration of risky assets. From its inception as a savings
               association in 2000, IndyMac grew to the seventh largest savings
               and loan and ninth largest originator of mortgage loans in the
               United States. During 2006, IndyMac originated over $90 billion of
               mortgages.

               IndyMac’s aggressive growth strategy, use of Alt-A and other
               nontraditional loan products, insufficient underwriting, credit
               concentrations in residential real estate in the California and Florida
               markets, and heavy reliance on costly funds borrowed from the
               Federal Home Loan Bank (FHLB) and from brokered deposits, led to
               its demise when the mortgage market declined in 2007. IndyMac
               often made loans without verification of the borrower’s income or
               assets, and to borrowers with poor credit histories. Appraisals
               obtained by IndyMac on underlying collateral were often
               questionable as well. As an Alt-A lender, IndyMac’s business model
               was to offer loan products to fit the borrower’s needs, using an
               extensive array of risky option-adjustable-rate-mortgages (option
               ARMs), subprime loans, 80/20 loans, and other nontraditional
               products. Ultimately, loans were made to many borrowers who
               simply could not afford to make their payments. Regardless, the

               Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 2
thrift remained profitable as long as it was able to sell those loans
in the secondary mortgage market.

When home prices declined in the latter half of 2007 and the
secondary mortgage market collapsed, IndyMac was forced to hold
$10.7 billion of loans it could not sell in the secondary market. Its
reduced liquidity was further exacerbated in late June 2008 when
account holders withdrew $1.55 billion in deposits. This “run” on
the thrift followed the public release of a letter from Senator
Charles Schumer to the FDIC and OTS. The letter outlined the
Senator’s concerns with IndyMac. While the run was a contributing
factor in the timing of IndyMac’s demise, the underlying cause of
the failure was the unsafe and unsound manner in which the thrift
was operated.

Although OTS conducted timely and regular examinations of
IndyMac and provided oversight through off-site monitoring, its
supervision of the thrift failed to prevent a material loss to the
Deposit Insurance Fund. The thrift’s high-risk business strategy
warranted more careful and much earlier attention.

OTS viewed growth and profitability as evidence that IndyMac
management was capable. Accordingly OTS continued to give the
thrift high composite CAMELS ratings right up until shortly before it
failed in 2008. We found that OTS identified numerous problems
and risks, including the quantity and poor quality of nontraditional
mortgage products. However, OTS did not take aggressive action
to stop those practices from continuing to proliferate. OTS had at
times as many as 40 bank examiners involved in the supervision of
IndyMac; however, the examination results did not reflect the
serious risks associated with IndyMac’s business model and
practices. OTS examiners reported Matters Requiring Board
Attention (MRBA) to the thrift, but did not ensure that the thrift
took the necessary corrective actions. OTS also did not always
report all problems found by the examiners, which were evident in
the workpapers but not in the Reports of Examination (ROE). OTS
relied on the cooperation of IndyMac management to obtain needed
improvements. However, IndyMac had a long history of not
sufficiently addressing OTS examiner findings. OTS did not issue
any enforcement action, either informal or formal, until June 2008.
In short, earlier enforcement action was warranted.


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 3
Our material loss review of IndyMac is the second such review we
have performed of an OTS-regulated financial institution during the
current financial crisis. In our first material loss review, of NetBank,
FSB, we were critical of OTS for not taking stronger action when
problems noted by examiners remained uncorrected through several
examination cycles. We were also critical of OTS for delaying
formal enforcement action after it had downgraded the thrift to a 3
in 2006. With IndyMac, OTS examiners reacted even slower in
addressing issues that were more severe and with an institution
that was nearly 10 times the size. IndyMac engaged in very
high-risk activities over many years, yet OTS’s examiners did not
downgrade the thrift from its 2 rating until early 2008 (except for a
brief downgrade in 2001), and only after IndyMac started to incur
substantial losses from the risky, non-conforming loan products it
could no longer sell on the secondary market. It is important to
note that IndyMac did not even appear on OTS’s problem thrift list
provided to our office including the June 2008 list provided to us
less than a month before the thrift was closed.

We believe that it is essential that OTS senior leadership reflect
carefully on the supervision that was exercised over IndyMac and
ensure that the correct lessons are taken away from this failure. In
this regard, we recommend that the Director of OTS (1) ensure
that action is taken on the lessons learned and recommendations
from the OTS internal review of the IndyMac failure and (2) caution
examiners that assigning composite CAMELS ratings of 1 or 2 to
thrifts with high-risk, aggressive growth business strategies need
to be supported with compelling, verified mitigating factors (such
as thrift corporate governance, and risk management and
underwriting controls) that are likely to be sustainable. OTS should
examine and refine its guidance as appropriate.

OTS Management Response

In its management response, OTS agreed with our overall findings
and recommendations and outlined a number of actions to address
the identified shortcomings. OTS management also stated that the
agency is committed to improve and strengthen its processes
based on the lessons learned from the failure of IndyMac.



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)            Page 4
Among the actions planned by OTS is establishing a large savings
association unit in Washington, DC, that will be responsible for
reviewing and concurring with regional office actions for savings
associations with total assets above $10 billion. To ensure
consistent, timely, and appropriate initiation and resolution of
corrective actions, OTS stated that it plans to implement newly
developed, uniform standards for review and approval of
enforcement actions by its existing Regional Office Enforcement
Review Committees.

OTS also provided a chronological list of actions it is taking or
plans to take to strengthen its supervisory process. These actions
are more fully described in the agency’s response to this report,
see appendix 7.

Additionally, OTS stated that it plans to issue during the first
quarter of 2009 (1) external guidance to thrifts on the appropriate
documentation, notification, and Thrift Financial Reporting
requirements for capital contributions and (2) internal guidance to
re-emphasize to examiners the importance of problem correction
which will highlight existing requirements for using OTS
examination systems to document corrective actions and
supervisory follow-up. During the second quarter of 2009, OTS
plans to work with the other federal bank regulatory agencies to
revise and reissue interagency guidance to address liquidity
monitoring.

With respect to our first recommendation, OTS stated that it is
dedicated to enact the recommendations in the lessons learned
review and has developed or is developing revised policy guidance
to address each one. It will also continue to monitor examination
activity to ensure that staff members implement, and the industry
complies, with the revised guidance. With respect to the second
recommendation regarding composite ratings of thrifts with high-
risk, aggressive growth business, OTS states that the
enhancements described in its response combined with OTS
guidance on assigning ratings and the lessons learned in the current
financial crisis should ensure that assigned ratings are appropriate
for each financial institution.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 5
             The full text of the OTS management response is included as
             appendix 7.

             OIG Comment

             OTS identified a number of significant actions that if implemented
             as described should improve the timeliness and quality of its
             supervisory response to thrift high risk activities, particularly those
             by the largest thrifts. It will, however, take time to assess the
             effectiveness of these actions and continuous senior management
             attention will be crucial to their success.


Causes of IndyMac’s Failure
             High Risk Business Strategy and Aggressive Growth

             From the time IndyMac Bank transformed from a real estate
             investment trust into a savings and loan association in July 2000,
             IndyMac embarked on a path of aggressive growth. From mid-2000
             to the first quarter of 2008, IndyMac’s assets grew from nearly
             $5 billion to over $30 billion. Growth resulted from the business
             strategy of the thrift’s Chief Executive Officer (CEO) and board of
             directors, which was to originate or buy loans and sell them in the
             secondary market. Chart 1 below shows the thrift’s growth in
             assets during this period.




             Material Loss Review of IndyMac Bank, FSB (OIG-09-032)            Page 6
Chart 1. IndyMac’s Growth in Assets Since Inception (in billions)

     $35

     $30

     $25

     $20

     $15

     $10

      $5

       $-
            1999   2000   2001    2002   2003    2004    2005   2006   2007   1Q2008


   Source: IndyMac SEC Filings

As its primary business, IndyMac originated loans or bought loans
from others, including from mortgage origination brokers, then it
packaged them together in securities and sold them on the
secondary market to other banks, thrifts, or Wall Street investment
banks. IndyMac maintained mortgage servicing rights for the loans
it sold. These loans were held in IndyMac’s held for sale portfolio
during the time they were packaged until they were sold to
investors.

Chart 2 below shows the loan production for IndyMac from
inception through 2008, during which time it generated about $10
billion in loans in 2000 to a high of $90 billion in 2006.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                        Page 7
Chart 2 IndyMac’s Loan Production by Year (in billions)

     $100

      $90

      $80

      $70

      $60

      $50

      $40

      $30

      $20

      $10

     $-
            1999   2000   2001    2002   2003   2004     2005   2006   2007   1Q2008


Source: IndyMac 10-K and 10-Q reports

IndyMac offered an extensive array of nontraditional mortgage loan
products. With these products, it could qualify a wide range of
borrowers for a loan. Many of these nontraditional mortgages,
however, came with an increased risk of borrower default. For
example, IndyMac offered an option ARM where the required
minimum payment would not fully cover the monthly interest. This
could result in negative amortization of the principal balance if the
borrower paid less than the fully amortizing payment. According to
an Indymac official, in 2006, 75 percent of borrowers who took
the option ARM were only making the minimum payment.

ARMs comprised nearly 3 of every 4 loans that IndyMac made
during the years 2004 through 2006. IndyMac benefited from
these loans because of the larger profit that could be made on
these products. For example, in 2006, the profit on an ARM was 3
percent compared to 0.9 percent on conforming loans sold to
Government Sponsored Enterprises (GSE). By mid-2007, however,
the profit on option ARMs and subprime loans had dropped to zero.

These loans proved to be even riskier because for the most part
they were originated with less than full documentation. For a
“stated income” loan, for example, IndyMac did not require



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                        Page 8
                      borrowers to provide documentation to support the income on the
                      application.1

                      By May 2005, signs of borrower distress were evident. There was
                      an increase in the demand for interest only loans, and an increasing
                      number of borrowers were only making the minimum payments on
                      option ARMs. At the same time, house prices in California were
                      leveling off.

                      When the secondary market for loans collapsed in late 2007,
                      IndyMac could no longer sell its non-conforming mortgage loans.
                      Therefore, the thrift’s $10.7 billion in loans “held for sale” in its
                      warehouse were transferred to loans “held to maturity.” These
                      loans remained in the thrift’s warehouse because there were no
                      bids, no market, and the discount was unknown. By May 2008
                      non-conforming mortgage loans had grown to $11.2 billion and
                      IndyMac’s own data showed that 12.2 percent of these loans were
                      90 days or greater in delinquency.

                      Lack of Core Deposits

                      With only 33 retail branch locations (less than average for a
                      financial institution of IndyMac’s size), IndyMac had limited access
                      to retail deposits. As a result, IndyMac came to depend on more
                      costly FHLB borrowing (advances) and brokered deposits for funds.

                      As of September 2006, IndyMac had over $9 billion in outstanding
                      FHLB advances. IndyMac also borrowed, though to a much lesser
                      extent, from the Federal Reserve and a German bank. An FDIC
                      examiner commented in examination workpapers that IndyMac’s
                      FHLB advances represented 34 percent of total assets, high in
                      comparison to other similar size institutions. This examiner also
                      wrote that IndyMac should be monitored closely. OTS’s examiner
                      responded that these were “eye-opening stats.” In March 2008,
                      FHLB advances remained high, at 32 percent of total assets.



1
  In some instances, borrowers provided some written documentation to support listed assets. In other
instances, IndyMac performed a reasonableness test by comparing the borrower’s employment position
and income to information on websites such as salarys.com. There were other instances where
IndyMac employees noted in the loan files that they had verbally verified the borrower’s employment.

                      Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                    Page 9
IndyMac increased its use of brokered deposits beginning in August
2007, when the market for the thrift’s loans collapsed. During the
period August 2007 through March 2008, brokered deposits
increased from about $1.5 billion to $6.9 billion.

Inadequate Loss Reserves

OTS, consistent with generally accepted accounting principles,
requires thrifts to set aside an adequate Allowance for Loan and
Lease Losses (ALLL) for probable loan losses resulting from
delinquencies. As early as 2004, IndyMac senior management
began observing the probability of a downward trend in real estate
values, which could reduce the collateral supporting loans and
result in possible loan losses. Regardless, IndyMac’s ALLL
decreased as a percentage of the thrift’s total loans until 2007
when it finally increased its ALLL because it began to experience
losses in its loan portfolio. This is shown in chart 3 below.

Chart 3. IndyMac’s ALLL as a Percentage of Total Loans

    1.80%

    1.60%

    1.40%

    1.20%

    1.00%

    0.80%

    0.60%

    0.40%

    0.20%

    0.00%
            2000   2001   2002   2003   2004    2005     2006   2007   1Q2008


   Source: FDIC statistics on depository institutions


During early 2008, IndyMac hired an independent public
accountant (IPA) to review the ALLL compliance methodology. The
IPA found weaknesses with the thrift’s ALLL policy. Various
business units were inconsistently calculating their own ALLL and
senior management did not provide detailed guidance on how they



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                          Page 10
expected the divisions to develop historical losses, look-back
periods, and baseline factors.

The ALLL is critical because of its impact on the thrift’s capital
levels. Based on OTS policy, when the ALLL exceeds 1.25 percent
of risk-weighted assets, it must be excluded from the equation that
measures risk based capital levels. As of March 31, 2008, this
amounted to a decline of 0.57 percent in total risk based capital for
the thrift, which was already low at 10.26 percent (if the threshold
would fall below 10 percent, IndyMac would not have been
considered “well capitalized” for regulatory purposes).

Unsound Underwriting Practices

IndyMac encouraged the use of nontraditional loans. IndyMac’s
underwriting guidelines provided flexibility in determining whether,
or how, loan applicants’ employment, income, and assets were
documented or verified. The following procedures were used by the
thrift:

•   No doc: income, employment, and assets are not verified
•   No income/no assets (NINA): income and assets are not
    verified; employment is verbally verified
•   No ratio: no information about income is obtained; employment
    is verbally verified; assets are verified
•   Stated income: income documentation is waived, employment is
    verbally verified, and assets are verified
•   Fast forward: income documentation is sometimes waived,
    employment is verbally verified, and assets may or may not be
    verified

To explore the impact of thrift underwriting on loan performance,
we reviewed 22 delinquent loans that represented a cross-section
of the loan products in IndyMac’s loans held to maturity portfolio.
These loans were 90 days or more delinquent as of August 31,
2008. We reviewed the loan files and discussed the loans with
IndyMac officials who were retained by FDIC in the
conservatorship.

For the loans reviewed, we found little, if any, review of borrower
qualifications, including income, assets, and employment. We also

Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 11
found weaknesses with property appraisals obtained to support the
collateral on the loans. For example, among other things, we noted
instances where IndyMac officials accepted appraisals that were
not in compliance with the Uniform Standard of Professional
Appraisal Practice (USPAP). We also found instances where
IndyMac obtained multiple appraisals on a property that had vastly
different values. There was no evidence to support, or explain why
different values were determined. In other instances, IndyMac
allowed the borrowers to select the appraiser. As illustrative of
these problems, the file for one 80/20, $1.5 million loan we
reviewed contained several appraisals with values ranging between
$639,000 and $1.5 million. There was no support to show why
the higher value appraisal was the appropriate one to use for
approving the loan.

We have included more detailed descriptions of four loans we
reviewed in appendix 6, which illustrate examples of some of the
weakest underwriting practices.

Impact of Senator Schumer’s Letter on the Thrift

In an interview, OTS’s Deputy Director, Examinations, Supervision
and Consumer Protection, stated that IndyMac was a distressed
institution with a high probability of failure, but the immediate
cause of IndyMac’s failure was a liquidity crisis resulting from
deposit outflows of $1.55 billion (the deposit outflows occurred
following the public release of a June 26, 2008, letter from
Senator Charles Schumer). The Senator’s letter described problems
with the thrift that the regulators needed to be aware of and take
actions to correct. The letter suggested the thrift was on the verge
of failure.

According to the West Region Director, there were investors who
were interested in investing in IndyMac around this time. However,
he told us that this interest waned after the Senator’s letter was
published precipitating depositor withdrawals. The OTS official
cited one investment firm in particular that had discussed with
IndyMac’s CEO the possibility of investing about $1 billion in the
thrift. In our review of OTS e-mails related to its supervision of
IndyMac, we found a June 18, 2008, e-mail from IndyMac’s CEO
to the West Region Director, the West Region Assistant Director,


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 12
and the examiner-in-charge for IndyMac which stated that the
investment firm was very impressed with IndyMac’s team and was
interested in investing in the thrift. The e-mail further stated the
firm had completed on-site due diligence with IndyMac’s
management team regarding the thrift’s balance sheet, off-balance
sheet, and business model prospects.

This is inconsistent with another e-mail we read from IndyMac’s
CEO dated May 21, 2008, to OTS’s West Region Director,
Assistant Director, and examiner-in-charge, that he thought that
firms contemplating investing in IndyMac would need assurances
from OTS and FDIC about what regulatory actions were being
considered and the possible impact on the thrift.

With this information, we interviewed the managing principal of the
investment firm to determine the firm’s level of interest in investing
in IndyMac. The managing principal said that the firm had explored
investing in IndyMac, as part of its normal business process, but
never reached a point of serious interest. Also, the principal
clarified that the firm based its decision not to invest on its own
analysis of IndyMac. Contrary to what OTS’s West Region Director
told us, the principal said that Senator Schumer’s letter did not
affect the firm’s investment decision.

Furthermore, an analysis performed by FDIC identified the liquidity
problem at IndyMac months before the letter came to light.
Specifically, in a March 2008 liquidity analysis FDIC identified the
need for an investment of $2 billion to $3.5 billion to keep the
thrift from failing. Another FDIC analysis, prepared in April 2008,
showed that IndyMac was at a high risk of being downgraded to
"less than well capitalized." In that analysis FDIC described
IndyMac’s dependence on brokered deposits to pay off FHLB
advances and increase liquidity (brokered deposits at that time
totaled nearly $6.9 billion). The analysis also noted that while
IndyMac had approximately $3.5 billion in its lines of credit with
the FHLB and Federal Reserve, it also had $12 billion in certificates
of deposits that would mature within 6 months and be subject to
withdrawal.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 13
OTS’s Supervision of IndyMac
                       OTS’s supervision of IndyMac failed to prevent a material loss to
                       the Deposit Insurance Fund. Though OTS conducted regular
                       examinations of the thrift, OTS examiners did not identify or
                       sufficiently address the core weaknesses that ultimately caused the
                       thrift to fail until it was too late -- causes such as aggressive
                       growth without sufficient controls, poor loan underwriting, and
                       reliance on volatile funding sources and FHLB advances. Even
                       when examiners identified problems, OTS did not always report
                       these to the thrift in the Reports of Examination (ROE).

                       In fact, from 2001 to 2007 OTS’s composite CAMELS ratings of
                       IndyMac consistently remained at 2.2 It was not until 2008 that it
                       dropped IndyMac’s composite CAMELS rating to a 3 and then to a
                       5. According to OTS guidance, one of the principal objectives of
                       the CAMELS rating process is to identify those institutions that
                       pose a risk of failure and merit more than normal supervisory
                       attention.3 Furthermore, the CAMELS rating is to be a qualitative
                       assessment based on a careful evaluation of component ratings,
                       which evaluate, among other things, whether capital is adequate in
                       relation to the risk profile and operations; asset quality reflects the
                       extent of credit risk associated with the loan and investment
                       portfolios; management has established appropriate policies,
                       procedures, and practices regarding acceptable risk exposures; and
                       the thrift’s liquid assets are adequate. There were a number of
                       concerns with IndyMac’s capital levels, asset quality, management,
                       and liquidity over the years. Had OTS taken these issues into
                       account, we find it hard to understand how OTS consistently
                       arrived at a satisfactory CAMELS composite rating of 2.

                       Furthermore, while OTS did report some MRBAs and other matters
                       needing corrective action to the thrift in ROEs, it accepted
                       assurances from IndyMac management that problems would be
                       resolved. This was in spite of the fact that IndyMac management
                       had a history of not taking corrective actions which OTS examiners
                       recommended to improve the thrift. It should also be noted that

2
  In April 2001, OTS and FDIC performed an onsite review of IndyMac and 4 months later downgraded
its original CAMELS composite rating of 2 to a 3. By the following year, the rating was elevated back to
a 2.
3
  OTS, Examination Handbook, Section 070.6, November 2004.

                       Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                    Page 14
OTS waited until June 2008 to issue it first informal enforcement
action against IndyMac, and until July 2008 to present its first
formal enforcement action against the thrift (the same month the
thrift was closed; the action was not executed).

When we asked OTS’s West Region officials and examiners about
their supervisory efforts, they believed their supervision was
adequate. We disagree. The West Region Director, as well as the
examiners, believed that the collapse of both the real estate market
and the secondary market for mortgage backed securities were
responsible for the failure of the thrift. OTS regional officials also
attributed the failure to a liquidity crisis brought on by a letter from
Senator Schumer questioning the financial health of the thrift.
While these were factors, we believe IndyMac’s business strategy
of aggressive growth and high-risk products was fundamentally
flawed. Also, the thrift was already on a course for probable failure
by the time Senator Schumer’s letter was made public.

OTS Conducted Regular and Timely Examinations but Did Not
Always Address Key Areas of the Thrift

OTS conducted a full scope examination each year from 2001
through 2008. These examinations were staffed with between 12
to 40 examiners. Despite the regularity of the examinations and the
resources OTS devoted to them, OTS did not always assess certain
operational programs. For example, because OTS believed the thrift
was operationally safe and sound, it did not annually review things
like controls to manage aggressive growth or loan underwriting.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 15
Also indicative of OTS’s supervisory weaknesses, we found that
OTS took PCA on July 1, 2008, following classification of IndyMac
from well capitalized to adequately capitalized on June 30. This is
in conformance with PCA requirements. However, it should be
noted that a separate review by our office found that OTS allowed
IndyMac to record an $18 million capital infusion from the holding
company, received in May 2008, as though it was available on
March 31, 2008. This allowed IndyMac to inappropriately report
that it was at the well capitalized level as of March 31. A separate
review of this issue is ongoing. Additionally, we believe that OTS
should have taken PCA in May 2008 based on information in
IndyMac’s 10-Q filing for the quarter ending March 31, 2008.

Table 1 below summarizes the results of OTS’s safety and
soundness examinations of IndyMac.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 16
       Table 1 Summary of OTS IndyMac Examinations and Enforcement Actions
                                      Safety and Soundness Examination Results
                                     Number of
                                     matters
               Assets                requiring     Number of
               (in       CAMELS      board         corrective
Date started   millions) rating      attention     actions     Enforcement actions
4/16/2001       $5,732    2/233222            2            19      None
                                                          Offsite
8/24/2001       $7,425    3/233222           N/A        Downgrade N/A
7/29/2002       $7,112    2/232222            1            19      None
9/29/2003      $10,611    2/222223            5            12      None
11/15/2004     $15,005    2/222223            1             8      None
11/1/2005      $18,274    2/222222            7             8      None
1/8/2007       $26,501    2/222222            3             7      None
1/7/2008       $31,293    5/454554           10            24     • OTS and IndyMac enter into
                                                                    an MOU effective June 20,
                                                                    2008
                                                                  • On July 1, 2008, OTS
                                                                    designates IndyMac in
                                                                    troubled condition
                                                                  • On July 1, 2008 letter, OTS
                                                                    directs IndyMac to revise its
                                                                    business plan and establish a
                                                                    reverse mortgage
                                                                    concentration limit. OTS also
                                                                    downgrades IndyMac’s
                                                                    capital level to “adequately
                                                                    capitalized”
Source: OIG Analysis of OTS data.
Notes: (1) At August 24, 2001, OTS and FDIC examiners jointly determined the composite rating to
           ensure it reflected IndyMac’s overall risk profile.
       (2) On January 17, 2008, based on interim findings of the examination started on
           January 7, 2008, OTS downgraded IndyMac’s ratings to 3/242422, effective as of
           December 31, 2007.

                  Table 2 below shows the number of staff assigned to each
                  examination from 2003 to 2008 and the number of hours charged
                  to the assignment.




                  Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                  Page 17
Table 2. Number of OTS Staff and Hours Spent on IndyMac Examinations

        Examination           Number of Staff       Number of
         Start Date              Assigned             Hours
    9/29/2003                        18                    2,264
    11/15/2004                       19                    2,431
    8/22/2005                         7                       372
    11/7/2005                        26                    3,224
    1/8/2007                         40                    4,614
    1/7/2008                         37                    6,383
    6/2/2008                         12                    1,118
Source: OTS Examination System
Notes: (1) The August 22, 2005, examination was a field visit to check
           progress on prior exam findings and gather information for the next
           full scope examination.
       (2) The June 2, 2008, examination was a targeted examination to
           identify risks to capital. The purpose was to determine the amount of
           capital needed to cover credit losses, provide for operations until a
           new business model could be implemented, and maintain capital
           levels at well capitalized. This exam was not completed before
           IndyMac was closed.

The sections that follow discuss our findings with OTS’s review of
the use of nontraditional loan products, underwriting of loans, and
the lack of forceful enforcement action.

Concerns About Nontraditional Loans

OTS identified a number of concerns over the years related to
IndyMac’s use of nontraditional loans. Several of these concerns
affected the thrift’s capital requirements – things like IndyMac’s
narrow definition of subprime loans, the impact of negative
amortization associated with the thrift’s nontraditional loans, and
the thrift’s failure to monitor its option ARM portfolio. Yet, in
response to all of these concerns, OTS did not take forceful action.

Subprime Loans Were Narrowly Defined

OTS expressed concerns in the 2001 through 2005 ROEs about
IndyMac’s narrow definition of subprime loans, but only required
the expansion of the definition after 2003. In its 2003 ROE, OTS
reported that IndyMac had not changed its guidelines and
expressed concern because IndyMac’s subprime definition did not
require the thrift to maintain a sufficient level of capital. In its 2004


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                   Page 18
                      ROE, however, OTS agreed to simplify matters for IndyMac, and
                      gave the thrift permission to use its narrow definition of subprime
                      loans. Had OTS taken action, the thrift would have had to maintain
                      more capital. In 2007, although the thrift’s operation had not
                      changed and the real estate market was collapsing, OTS not only
                      did not require the thrift to take action, but no longer even
                      expressed concern about the issue.

                      This was very surprising to us because in the beginning of 2007
                      IndyMac’s own CEO expressed concerns about the thrift’s
                      subprime portfolio in an e-mail message to his executives that
                      discussed the secondary market disruption. His message stated
                      that IndyMac needed to get ahead of the secondary market and
                      trade as much as they could as fast as they could in small deal
                      sizes. In this message, the CEO detailed liquidity problems in the
                      subprime market and the thrift’s efforts to pare back risk.
                      Specifically, the CEO stated that the thrift’s financial condition was
                      suffering from the effects of its subprime loans and was in the
                      process of structuring a transaction to sell approximately
                      $1.1 billion of them. He went on to say that Wall Street had
                      “pulled financing from investors.” He said that the thrift also
                      needed to revisit product guidelines in the high risk areas such as
                      subprime, fully financed mortgages as well as the thrift’s higher
                      loan-to-value (LTV) products and make those products
                      “considerably more conservative.”4

                      Nonetheless, in its 2007 ROE, OTS said that IndyMac’s subprime
                      lending was within the thrift’s policy and OTS guidelines. Despite
                      this, the examination workpapers indicated that the OTS examiner
                      was not totally comfortable with IndyMac’s compliance with
                      guidance, although he stated in the workpapers that he was
                      satisfied with IndyMac’s efforts and would work with the thrift to
                      ensure compliance. These nontraditional loan products, which
                      included ARMs, were being offered to subprime borrowers. The
                      OTS examiner recommended in his workpapers that IndyMac
                      monitor the competition to ensure its underwriting guidelines were
                      not so loose as to pick up the “leftovers” after other institutions
                      tightened standards.


4
  We obtained the CEO’s e-mail from OTS. The West Region Director had forwarded it to West Region
staff and several of the OTS examiners for IndyMac.

                      Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                Page 19
Impact of Negative Amortization

In its 2005 ROE, OTS did not show concern for IndyMac’s use of
option ARM and interest only loans because losses were minimal
and capital was satisfactory. However, OTS stated that capital
ratios continued to move lower because of significant asset
growth, including growth in these high-risk loans, and were below
the thrift’s peers as we illustrate in Chart 4 below. OTS highlighted
the risks associated with negative amortization that existed in
IndyMac’s nontraditional mortgage loan portfolio. IndyMac’s total
risk based capital, however, continued to decline, yet OTS took no
action.

Chart 4. Total Risk Based Capital for IndyMac and Thrifts with Over $10 billion
in Assets

   18%
   16%
   14%
   12%
   10%
    8%
    6%
    4%
    2%
    0%
        02



        03



        04



        05



        06




        07
       01



       02




       03



       04



       05



       06



       07
     n-




     n-



     n-



     n-



     n-



     n-
     c-



     c-



     c-



     c-




     c-



     c-



     c-
  Ju



  Ju



  Ju



  Ju



  Ju




  Ju
  De



  De



  De



  De



  De




  De



  De




                                IndyMac         10Bill Thrifts

Source: OIG analysis of FDIC Statistics on Depository Institutions

Monitoring of Option ARMs

In examiner workpapers supporting OTS’s 2008 examination, we
found the examiner expressed concern over the fact that
IndyMac’s option ARMs, many of which were now in the loans
held to maturity portfolio, would soon reset to higher rates of
interest. OTS stated that 34 percent of the loans as of
December 31, 2007, exceeded 106 percent of their original loan
values due to negative amortization and would soon approach 110
percent. In this workpaper, the examiner recommended that the


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                   Page 20
thrift review reports that provided IndyMac management with a
means for monitoring these loans. In the response attached to this
finding, IndyMac provided copies of various reports it used to
monitor performance of its option ARMs. The thrift asked OTS to
provide examples of best practices report templates to implement
this recommendation. We did not find that OTS reported this
finding in the ROE or that the thrift took corrective action.

OTS Did Not Require Correction of IndyMac’s Poor Loan
Underwriting

IndyMac’s business model was to produce as many loans as
possible and sell them in the secondary market. To facilitate this
level of production, we found that IndyMac often did not perform
adequate underwriting. OTS, however, did not require IndyMac to
make improvements in underwriting until late 2007. By then, it
was too late. The information that follows are underwriting
concerns we identified in several significant areas of the thrift’s
operations. We obtained this information by reviewing OTS, FDIC,
and thrift documentation and interviewing OTS, FDIC and thrift
employees.

IndyMac’s Conduit Division Engaged in Risky Practices for Years
Before OTS Identified Concerns

To increase loan production, IndyMac relied heavily on outside
mortgage brokers to originate loans. This became such a large part
of IndyMac’s operations that a separate unit, the Conduit Division,
was set up to purchase loans in bulk from other loan originators.
IndyMac sold these loans to investors in the secondary market. We
found that many of IndyMac’s problem loans were purchased
through this division. In February 2007, IndyMac management,
based on its analysis of the thrift’s fourth quarter 2006 position,
identified the need to better manage credit risk in the Conduit
Division by implementing tighter seller approval and underwriting
standards. IndyMac ultimately closed the division in August 2007.

Using brokers to develop a community presence, attract
customers, and underwrite loans, through the Conduit Division,
allowed the thrift to grow rapidly and required only a minimal
capital investment. The Conduit Division grew tremendously from


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 21
 2002 through 2006, reporting production in 2006 of $31 billion.
 Chart 5 below shows the loan growth of the Conduit Division from
 2002 through 2007.

Chart 5. Loan Growth in the Conduit Division from 2002 through 2007 (in billions)


       $35

       $30

       $25

       $20

       $15

       $10

           $5

      $-
                2002   2003     2004     2005     2006    2007   1Q2008


     Source: Indymac’s Security and Exchange Commission Filings
     Note: IndyMac’s Conduit Division was closed in August 2007.

 We found that the thrift’s internal audit group reported problems
 with the Conduit Division as early as 2005. Specifically, because of
 concerns the group had in the division’s loan approval and
 underwriting process, it recommended that the division increase
 investment in infrastructure and personnel.

 Furthermore, in 2006, IndyMac’s independent auditor reported the
 Conduit Division as a financial reporting control deficiency. The
 independent auditor reported that the division did not have an
 effective process or system in place to oversee the execution of its
 trading activities or for monitoring the exposure to sellers which
 increased credit risk. Similar to IndyMac’s internal audit group, the
 independent auditor recommended that the division strengthen
 controls to ensure that adequate trading authority is obtained for
 pool purchases and wire transfer approvals, controls surrounding
 the trade reconciliation be strengthened, and controls be added for
 the description of loan pool population between initial purchase by
 IndyMac and final settlement dates.


 Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                   Page 22
Despite the concerns raised by the thrift’s internal and independent
auditors as well as the Conduit Division’s rapid growth, OTS did
not examine the division until 2007. When OTS finally did review
the division, it found major weaknesses. OTS made six
recommendations to IndyMac to improve the safety and soundness
of its Conduit Division. Shortly after, IndyMac recognized losses
were occurring from this division and closed it.

An OTS examiner we talked to about the Conduit Division loans
was concerned that OTS was assigning a CAMELS component 2
rating for asset quality and thought it should have been a 3. He
was concerned about the underwriting of loans in the division but
expressed some regret that he did not perform a more thorough
examination of Conduit Division loans. Another examiner had
similar concerns and stated that that the Conduit Division did not
underwrite loans, and that IndyMac was not properly reviewing the
stated income loans purchased from brokers and was not
monitoring delinquency rates of these loans. However, OTS’s
examiner-in-charge told us that he was confident that the risk was
manageable and thought the higher rating was appropriate.

OTS Was Unaware of Underwriting Problems in IndyMac’s Home
Construction Lending Division Until 2007

In our review of delinquent and troubled loans originated by
IndyMac, we found that its Home Construction Lending (HCL)
Division was responsible for many of them. Among other things,
the HCL Division made home construction loans. It also originated
speculative loans and made loans for land purchases. As of
December 31, 2007, the HCL Division’s loan portfolio was about
$2.3 billion or 11 percent of IndyMac’s entire loan portfolio.

It was not until its 2007 ROE that OTS reported concerns in the
underwriting standards of the HCL Division construction-to-
permanent loan portfolio. Among other things, the examiners could
not verify that management had determined that sufficient funds
existed to complete projects. Overall, the examiners noted a
number of findings related to the HCL Division portfolio. It is
interesting to note that one of the OTS examiners stated in an e-
mail to another examiner, with regard to the HCL Division, that the
“appreciation in the market during the last 4 to 5 years was a


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 23
wonderful deodorant to any sloppy or loose underwriting or fund
control processes.”

Except for some problems with the underwriters’ documentation of
appraisals in 2004, prior to 2007 OTS examinations had not
expressed any significant concerns with regard to IndyMac’s HCL
Division.

Having said that, IndyMac was aware of potential problems with
the HCL Division and in 2004 conducted its own review of the
division. IndyMac’s internal review found several problems,
including (1) a $517,000 bridge loan for which an appraisal was
not obtained to support collateral value, (2) loans with expired
insurance policies, (3) 22 loans that did not have evidence of
building permits in file, (4) 122 title endorsements checks for new
liens or delinquent taxes recorded against property that could
affect IndyMac’s lien position, and (5) money provided to
borrowers for 18 loans did not have supporting documentation for
these amounts as required with such documents as invoices or
contracts.

We interviewed OTS’s examiner-in-charge on the 2005
examination and asked him about OTS’s review of HCL. He stated
that the HCL division was much smaller at the time, was not a
major problem, and he could not recall specifics about the
examination. In OTS’s 2005 ROE we found no discussion of these
issues above.

OTS Identified Problems With IndyMac Appraisals in 2001 But
Failed to Ensure the Problems Were Corrected

OTS identified problems with IndyMac appraisals early on. In its
2001 examination, OTS found that appraisals for the Home
Builders Division (HBD) (1) violated policies and procedures,
(2) violated OTS and Uniform Standards of Professional Appraisal
Practice, (3) used inflated appraised values, (4) lacked market
analysis and feasibility studies to support appraised value, (5)
valued properties far in excess of the recent sale prices for the
subject properties and (6) used retail values for subdivisions instead
of prospective market value at the time of completion.



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 24
OTS, however, did not report these issues in the ROE. Instead, the
examination workpapers noted that OTS verbally explained the
problems with IndyMac officials and prepared written findings
memoranda addressed to the thrift’s Chief Credit Officer and Chief
Commercial Appraiser. In a limited examination later in the year,
OTS followed up on the appraisal issues and concluded that
additional attention was needed. However, while the appraisals did
not meet standards, OTS concluded that existing appraisals and
underwriting were sufficient to mitigate risk and did not issue an
MBRA or other corrective action. The basis for OTS’s conclusion
was not clear.

In its 2002 ROE, OTS examiners stated that IndyMac had hired a
new chief commercial appraiser who reviewed loan appraisals. OTS
examiners also stated that he was cooperative in working with the
OTS to revise policies, discuss appraisal methodology and
techniques, and work on acceptable resolutions of appraisal issues.
However, OTS did not comment on his effectiveness.

In its 2003 ROE, OTS reported that HBD appraisal policies,
procedures, and practices were satisfactory and problem asset
levels had declined. No specific comments were made about the
efforts of the new chief commercial appraiser identified by OTS a
year earlier. However, OTS reported concerns in the single family
real estate appraisal function. OTS deemed this function
satisfactory but said that improvements were needed.

In its 2004 ROE OTS reported that IndyMac had effective
residential and commercial appraisal functions, but recommended
corrective actions to enhance controls associated with residential
appraisals. We could not locate the supporting workpaper
documentation to determine what these actions were.

In its 2005 ROE, OTS did not report on IndyMac’s appraisal
function. We found that the examiner noted that in the prior year’s
examination, OTS recommended improvements in the appraisal
review and oversight function, and that both the OTS appraiser and
examiner reviewed for corrective actions and found the
recommendation had been implemented satisfactorily. No further
details were provided in the workpapers or the ROE.



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 25
In its 2007 ROE, OTS identified serious issues with IndyMac’s
appraisals. OTS found that the borrowers, rather than the mortgage
originator, were paying the appraisers directly, which did not
ensure appraiser independence. In several of the loan files, the OTS
appraiser noted inadequate documentation. In the examiner
workpapers, we noted that the examiner found appraisals where
the property valuation was made without physical site inspection
of the subject property or comparable properties, appraisals for
which the appraiser was not located in the immediate area,
appraisals where the valuations were based on public data sources,
and appraisals in which no photos of the property or comparables
were provided. Despite these serious weaknesses, OTS did not
require action be taken.

In its 2008 examination of IndyMac, OTS found improvements in
the appraisal function. OTS’s ROE stated that to improve credit
quality, management implemented more stringent underwriting
guidelines, tightened appraisal standards, and re-focused quality
control efforts to high risk areas. However, we did not find that
OTS’s examination workpapers supported these conclusions.

This was puzzling to us because in 2008 we found that IndyMac
hired a firm to conduct an assessment of its appraisals. The
primary finding of the firm, based on interviews with retail and
wholesale underwriters, was that IndyMac underwriting was not
centrally managed and instead was handled in remote branches and
in IndyMac’s Pasadena office. As a result, no consistency existed
with appraisal underwriting. The firm recommended that policies
and procedures be centralized and made consistent to ensure
conformity to procedures. We did not see evidence of how OTS
handled these findings and ensured IndyMac took the necessary
corrective actions.

OTS Did Not Issue an Enforcement Action Until June 2008

When the thrift’s business model was no longer viable, the thrift
suffered enormous losses. These losses stemmed from single-
family loans it held in its portfolio -- poorly underwritten, high-risk
non-conforming loans.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)            Page 26
In January 17, 2008, based on interim findings of OTS’s 2008
examination, OTS issued a letter to IndyMac’s board of directors,
chairman, and CEO that the bank’s composite CAMELS rating was
downgraded from a 2 to a 3, effective December 31, 2007. The
Asset Quality and Earnings component ratings were adjusted from
a 2 to a 4.

In accordance with OTS’s own enforcement guidance, there is the
presumption that formal enforcement action be taken for an
institution with a composite rating of 3 for the latest safety and
soundness examination, if conditions at the institution are rapidly
deteriorating or uncertainty exists as to whether management and
the board have the ability or willingness to take appropriate
corrective action. The guidance also states that OTS may consider
issuing an informal enforcement action for a 3 rated association
with strong management and a generally positive assessment, if
the institution takes immediate corrective actions to resolve the
concerns.

In accordance with this guidance and especially since IndyMac’s
financial condition was rapidly deteriorating, OTS should have
issued an enforcement action against IndyMac at the time it
downgraded the composite CAMELS rating to a 3 in January 2008.

We believe that OTS should have taken enforcement action against
IndyMac as early as 2005. In its 2005 ROE, OTS reported that
IndyMac’s capital ratios continued to move lower due to significant
asset growth, including growth in higher risk asset categories. OTS
was concerned with IndyMac’s quarterly liquidity stress analysis.
OTS also reported that IndyMac had several significant asset
concentrations that warranted a higher level of capital in the
current environment, such as nontraditional mortgage loans with
negative amortization potential, Alt-A loans, and geographic
concentration of loans in California and areas rated high-risk by
several mortgage insurance companies. We found no evidence in
the workpapers that enforcement action was considered.

In an April 2008 e-mail, OTS’s examiner in charge for IndyMac
contemplated enforcement action and raised it to the OTS’s West
Region Assistant Director. The examiner believed OTS officials
should publicly disclose IndyMac's poor earnings position to


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 27
prevent any liability to investors who had the potential to lose
money should the institution fail. At the same time, the examiner
was also concerned that if OTS were to take a formal enforcement
action, which is public, it would signal a problem with the
institution and impact IndyMac’s ability to raise capital. The West
Region Assistant Director responded to the examiner that OTS
officials had a responsibility to take the appropriate enforcement
actions and this decision should not be made with the concern that
it is public. Nonetheless, OTS did not take enforcement action until
June 2008, 2 months later. Examiners said they did not believe
enforcement action should have been taken sooner.

Issued June 11, 2008 and effective June 20, 2008, OTS entered
into a memorandum of understanding (MOU) which directed
IndyMac management and the board to implement a capital
restoration plan. The MOU also required IndyMac to (1) take steps
necessary and appropriate to ensure that its capital is
commensurate with its risk profile, (2) continue to refine and
implement its plan to reduce problem assets to acceptable levels,
(3) continue to act to ensure its funding is diversified and there are
contingency plans in place to have necessary funds available for
various stress scenarios, (4) execute plans for improving core
earnings and return to profitability, (5) provide bank plans to OTS
and report on the progress in meeting targets established in the
plans, and (6) make or pay no dividends or other capital
distributions without OTS approval. IndyMac’s board was directed
to ensure compliance with the plan.

On July 1, 2008, OTS issued a follow on supervisory directive to
IndyMac’s chairman and CEO stating that OTS had reviewed the
thrift’s capital restoration plan and was now directing the
institution to (1) finalize the plan in 20 days, report progress on a
monthly basis, implement the plan by closing retail and wholesale
forward mortgage lending units and no longer accept new rate
locks in those units; (2) establish concentration limits for reverse
mortgage loans and in the interim, limit aggregate reverse mortgage
loans, to the greater of the amount held at June 30, 2008, or 100
percent of tier 1 capital, and (3) continue to comply with the MOU.
In the directive, OTS also reclassified IndyMac’s capital level as




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 28
                        adequately capitalized (from well capitalized) and informed the
                        thrift that it was now subject to restrictions on brokered deposits.5

                        Also on July 1, 2008, OTS issued a Notice of Troubled Condition
                        Designation to the board of directors and CEO that assigned the
                        thrift a composite CAMELS rating of 5. The Notice placed
                        additional restrictions on the thrift related to asset growth, changes
                        in the board and management, golden parachutes, third party
                        contracts, and capital distributions. On July 3, 2008, OTS
                        presented to IndyMac management a cease and desist order, the
                        first time OTS started the process to take a formal, public
                        enforcement action against the thrift. However, OTS never
                        executed the order and the thrift was closed 8 days later. The
                        order would have required IndyMac to (1) retain tier 1 capital of
                        7 percent and total risk based capital of 13 percent at
                        December 31, 2008; (2) accept no new loans in its retail and
                        wholesale divisions; (3) within 20 days provide a business plan that
                        returns the thrift to a safe and sound position; (4) execute a
                        strategy that includes selling GSE reverse mortgages, retail banking
                        operations, and mortgage servicing; (5) submit a liquidity plan; and
                        (6) obtain approval from the Regional Director to issue dividends.
                        The thrift was closed on July 11. We believe the formal
                        enforcement action was too late.

                        OTS Should Have Taken Prompt Corrective Action Earlier

                        The purpose of PCA is to resolve the problems of insured
                        depository institutions at the least possible long-term loss to the
                        Deposit Insurance Fund.6 PCA provides federal banking agencies
                        with the authority to take certain actions when an institution’s
                        capital drops to certain levels. PCA also gives regulators flexibility
                        to discipline institutions based on criteria other than capital to help
                        reduce deposit insurance losses caused by unsafe and unsound
                        practices.

                        As noted above, OTS implemented provisions under PCA through
                        its supervisory directive dated July 1, 2008. This action was taken
                        immediately after OTS issued its ROE on June 30, 2008,


5
    12 CFR Section 337.6(b)(2)
6
    12 USC § 1831o

                        Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 29
                       concluding IndyMac’s capital level had declined from well
                       capitalized to adequately capitalized.

                       We believe, however, that OTS should have taken PCA in May
                       2008 based on information in IndyMac’s 10-Q filing for the quarter
                       ending March 31, 2008. In that 10-Q, IndyMac reported that its
                       total risk-based capital was 10.26 percent at the end of the
                       quarter, which was above the 10 percent threshold for well
                       capitalized. However, IndyMac included a disclosure that during
                       April 2008, Moody’s Investor Service and Standard & Poor’s
                       downgraded the thrift’s ratings on a significant number of
                       mortgage backed securities including certain of those issued by
                       IndyMac and for which IndyMac retained interest. IndyMac also
                       stated that had the downgraded ratings been applied to the balance
                       sheet as of March 31, 2008, its total risk based capital would have
                       been reduced to 9.27 percent, which is below the 10 percent well
                       capitalized threshold. OTS, therefore, could have used this
                       information to downgrade the thrift to the lower capital level and
                       implemented PCA.7

                       OTS’s Lessons Learned Review

                       OTS policy is to conduct an internal review after the failure of an
                       institution by an OTS region other than the OTS region where the
                       failure occurred. The purpose of the review is to examine causes of
                       the thrift’s failure, identify lessons learned for OTS staff, and
                       provide recommendations based upon the review. While these
                       reviews cannot be viewed as independent, we believe they are
                       useful in providing OTS senior management additional insight into
                       failures and needed supervisory improvement outside of and before
                       the completion of material loss reviews by our office.

                       OTS initiated an internal failed bank review of IndyMac following
                       its failure in July 2008. The scope of the review focused primarily
                       on OTS’s supervision from November 2005 until it failed. The
                       review was completed in September 2008.



7
  12 CFR Section 565.3(3)(c) provides for a savings association to be notified of its capital levels and
its capital category as of the most recent date of an adjustment due to a material event that places the
savings association in a lower capital category.

                       Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                     Page 30
The review, discussed in a 41-page report, found that the
immediate cause of IndyMac’s failure was an inability to meet its
obligations due to insufficient liquidity. The report stated that the
public release of the June 26, 2008, letter from Senator Schumer
to OTS and FDIC and the resultant media attention precipitated
significant deposit withdrawals from IndyMac. The deposit
withdrawals, which occurred at a time when all other sources of
liquidity had been restricted or eliminated, caused a liquidity crisis
and resulted in OTS closing the thrift on July 11, 2008.

The review also found that IndyMac was in a distressed financial
condition. The secondary mortgage market collapse that occurred
in 2007 forced IndyMac to discontinue its primary line of business
and retain on its balance sheet a $10.7 billion portfolio of loans of
declining credit quality. Also, the composition and geographic
concentration of IndyMac’s loan portfolio was vulnerable to the
downturn in the California housing market.

Further, the review concluded that IndyMac’s risk from its loan
products, including option ARMs and stated income loans, was not
sufficiently offset by other underwriting parameters, primarily
higher FICO scores and lower LTV ratios.

The review identified several lessons learned for OTS as follows:

   •   Underwriting practices considered standard in the mortgage
       industry may become more lax over time due to competitive
       pressures. Regulators need to scrutinize these standards
       closely, especially for institutions with concentrations of
       loans originated under these standards.

   •   Loans held for sale are not assured of being sold on the
       secondary market. Institutions cannot presume investor
       demand will continue.

   •   Traditional sources of liquidity available under normal
       economic conditions may be severely curtailed for
       institutions experiencing a distressed financial condition. The
       FHLB and Federal Reserve Bank can restrict borrowing to
       troubled institutions. The FDIC may reject requests for



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 31
       brokered deposit waivers to institutions falling below well-
       capitalized status.

   •   Concentration risk mitigation practices are essential
       regardless of current economic conditions. High-risk
       activities and concentration risks can be concealed by
       financial success during favorable economic conditions.

   •   Documented and timely enforcement action is essential to
       ensure supervisory expectations are communicated to the
       board of directors.

The OTS Midwest Region staff provided the following
recommendations to the West Region:

   •   West Region management should closely evaluate the need
       to limit institutions’ capital exposure to purchases and sales
       of loans with high-risk characteristics.

   •   OTS should enhance examiner guidance for liquidity
       monitoring. Institutions must have contingency plans in place
       to reposition assets in the event liquidity safety nets are
       eliminated or limited by the FHLB and the Federal Reserve
       Bank.

   •   West Region management should consider issuing further
       policy guidance outlining examiner’s procedures for
       documenting supervisory follow-up to examination findings.
       Documentation should be maintained on all follow-up efforts
       and conclusions regarding compliance.

OTS provided our office with an update on the status of these
recommendations on February 17, 2009. In this regard, OTS stated
that it issued or planned to issue revised guidance to cover each
recommendation.

OTS’s lessons learned review on IndyMac reported on many of the
same significant problems that we identified. However, we believe
the review put too much emphasis on liquidity and not enough on
the unsafe and unsound practices and business model of the thrift.
The review did not address the aggressive business strategy that

Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 32
                     placed loan production and growth ahead of underwriting controls.
                     This strategy ultimately caused the thrift to make a large number of
                     bad loans, resulting in credit losses that could not be overcome,
                     particularly when the real estate and secondary markets collapsed
                     in mid-2007 and loans had to be held to maturity. At this point, the
                     thrift’s capital position was put in jeopardy and, combined with its
                     lack of retail deposits and reliance on brokered deposits and FHLB
                     advances, caused a liquidity crisis. We believe that OTS should
                     have done much more to ensure IndyMac tightened its loan
                     underwriting early on when the thrift was establishing its business
                     strategy.

Concluding Remarks and Recommendations

                     Our material loss review of IndyMac is the second such review we
                     have performed of an OTS-regulated financial institution during the
                     current financial crisis. In our first material loss review, of NetBank,
                     FSB, we made 3 recommendations. Two of the recommendations
                     related to an internal assessment of the NetBank failure and the
                     need to strengthen the internal assessment process and ensure
                     that action was taken on the recommendations and lessons-learned
                     from the internal assessment. As the third recommendation, we
                     recommended that OTS re-emphasize to examiners that for 3-rated
                     thrifts, formal enforcement action is presumed warranted when
                     certain circumstances identified in the OTS Examination Handbook
                     are met. OTS concurred with the recommendation and provided
                     responsive planned actions.8

                     With NetBank, we were critical of OTS for not taking stronger
                     action when problems noted by examiners remained uncorrected
                     through several examination cycles. We were also critical of OTS
                     for delaying formal enforcement action after it had downgraded the
                     thrift to a 3 in 2006. With IndyMac, OTS examiners reacted even
                     slower in addressing issues that were more severe and with an
                     institution that was nearly 10 times the size. IndyMac engaged in
                     very high-risk activities over many years, yet OTS’s examiners did
                     not downgrade the thrift from its 2 rating until early 2008 (except
                     for a brief downgrade in 2001), and only after IndyMac started to


8
 OIG, Safety and Soundness: Material Loss Review of NetBank, FSB (Report No. OIG-08-032; Apr. 23,
2008).

                     Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                Page 33
incur substantial losses from the risky, nontraditional loan products
it could no longer sell on the secondary market. Furthermore,
IndyMac did not even appear on OTS’s problem thrift list provided
to our office, including the June 2008 list provided to us less than
a month before the thrift was closed.

We believe that it is essential that OTS senior leadership reflect
carefully on the supervision that was exercised over IndyMac and
ensure that the correct lessons are taken away from this failure. In
this regard, we recommend that the Director of OTS:

1. Ensure that action is taken on the lessons learned and
   recommendations from the OTS internal review of the IndyMac
   failure.

   Management Response

   OTS stated that it is dedicated to enacting the
   recommendations and has developed or is developing revised
   policy guidance to address each one. OTS also communicated
   the changes to staff and the thrift industry during training, staff
   meetings, and outreach throughout 2008 and 2009. OTS will
   continue to monitor examination activity to ensure that staff
   members implement, and the industry complies, with the
   revised guidance.

   OIG Comment

   OTS’s actions, taken and planned, address the intent of this
   recommendation. As indicated in OTS’s response, all planned
   actions are to be in place by the second quarter of 2009.

2. Caution examiners that assigning composite CAMELS ratings of
   1 or 2 to thrifts with high-risk, aggressive growth business
   strategies need to be supported with compelling, verified
   mitigating factors. Such mitigating factors should consider
   things such as the institution’s corporate governance, risk
   management controls, ALLL methodologies, concentration
   limits, funding sources, underwriting standards, and capital
   levels and whether the mitigating factors are likely to be
   sustainable in the long-term. Another important factor that


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 34
   should be considered is the extent the thrift offers nontraditional
   loan products (regardless of whether loans are sold or retained)
   that have not been stress tested in difficult financial
   environments, and whether the thrift can adequately manage
   the risks with such products. OTS should re-examine and refine
   as appropriate its guidance in this area.

   Management Response

   According to OTS, the OTS Examination Handbook Section
   070, Ratings: Developing, Assigning, and Presenting, addresses
   the criteria under which an examiner should rate a financial
   institution. In this regard, examiners should base ratings on a
   careful evaluation of an institution’s managerial, operational,
   financial, and compliance performance. The ratings should help
   identify associations that pose a risk of failure and merit more
   than normal supervisory attention. Additionally, senior managers
   routinely discuss the appropriateness of ratings based on
   examinations, off-site monitoring, and other supervisory
   activities. OTS is committed to ensuring that its examination
   ratings accurately reflect the condition of its regulated financial
   institutions.

   OTS states that the enhancements described in its response
   combined with OTS guidance on assigning ratings and the
   lessons learned in the current financial crisis should ensure that
   assigned ratings are appropriate for each financial institution.

   OIG Comment

   As indicated in its response, OTS considers its current guidance
   to be adequate. OTS’s commitment to ensure ratings are
   appropriate is noted. Collectively, the corrective actions
   described in its response have the potential to have major
   impact on its supervision of thrifts, including the assignment of
   ratings. However, it will take time to assess the effectiveness of
   these actions and continuous senior management attention will
   be crucial to their success.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 35
                                  * * * * *

We would like to extend our appreciation to OTS for the
cooperation and courtesies extended to our staff during the audit.
If you have any questions, please contact me at (617) 223-8640 or
Sharon Torosian, Audit Manager, at (617) 223-8642. Major
contributors to this report are listed in appendix 8.




Donald P. Benson
Audit Director




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)      Page 36
                         Appendix 1
                         Objectives, Scope, and Methodology


                         We conducted this material loss review of IndyMac Bank, FSB
                         (IndyMac) in response to our mandate under section 38(k) of the
                         Federal Deposit Insurance Act, as amended. 9 This section provides
                         that if a Deposit Insurance Fund incurs a material loss with respect
                         to an insured depository institution, the inspector general for the
                         appropriate federal banking agency is to prepare a report to the
                         agency, which shall

                         •   ascertain why the institution’s problems resulted in a material
                             loss to the insurance fund,

                         •   review the agency’s supervision of the institution, and

                         •   make recommendations for preventing any such loss in the
                             future.

                         •   assess implementation of prompt corrective action (PCA)
                             provisions of section 38.

                         Section 38(k) defines a loss as material if it exceeds the greater of
                         $25 million or 2 percent of the institution’s total assets. The law
                         also requires the inspector general to complete the report within
                         6 months after it becomes apparent that a material loss has been
                         incurred.

                         We initiated a material loss review of IndyMac based on the loss
                         estimate by the Federal Deposit Insurance Corporation (FDIC). As
                         of December 31, 2008, FDIC’s Deposit Insurance Fund had
                         recorded an estimated loss of $10.7 billion.

                         To accomplish our review, we conducted fieldwork at the Office of
                         Thrift Supervision (OTS) headquarters in Washington, DC and its
                         regional office in Daly City, California. We also met with FDIC
                         officials with its (1) supervisory office in San Francisco, California,
                         and (2) Division of Resolutions and Receiverships on site at
                         IndyMac headquarters in Pasadena, California. While in Pasadena
                         we also interviewed and obtained documents from IndyMac
                         employees.



9
    12 USC § 1831o(g).

                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 37
Appendix 1
Objectives, Scope, and Methodology


To assess the adequacy of OTS’s supervision of IndyMac, we
performed interviews and reviews to determine (1) when OTS first
identified safety and soundness problems at the thrift, (2) the
gravity of the problems, and (3) OTS’s supervisory response to get
the thrift to correct the problems. We also performed interviews
and reviews to determine whether OTS (1) might have discovered
problems earlier; (2) identified and reported all the problems; and
(3) issued comprehensive, timely, and effective enforcement
actions that dealt with any unsafe or unsound activities.
Specifically, we did the following:

   •   We reviewed OTS supervisory files and records for IndyMac
       from 2000, the year it was chartered by OTS, through
       2008. We analyzed examination reports, supporting
       workpapers, and related supervisory and enforcement
       correspondence. We performed these analyses to gain an
       understanding of the problems identified, the approach and
       methodology OTS used to assess the thrift’s condition, and
       the regulatory action used by OTS to compel thrift
       management to address any deficient conditions. In
       assessing OTS’s supervisory actions with respect to
       IndyMac, we considered internal OTS guidance and
       legislation provided by the Federal Deposit Insurance
       Corporation Improvement Act, 12 USC § 1820(d).

   •   We interviewed and discussed various aspects of the
       supervision of IndyMac with OTS management officials and
       examiners to obtain their perspective on the thrift’s condition
       and the scope of the examinations.

   •   We interviewed FDIC officials and examiners who were
       responsible for monitoring IndyMac for federal deposit
       insurance purposes, FDIC officials who were assigned to the
       thrifts operations to run the conservatorship, and FDIC
       Division of Resolutions and Receiverships personnel who
       were involved in the receivership process.

   •   We interviewed current or former officials and employees of
       IndyMac’s Enterprise Risk Management group and internal
       audit regarding the thrift’s operations.



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 38
Appendix 1
Objectives, Scope, and Methodology



   •   We selectively reviewed IndyMac documents that had been
       taken by FDIC and inventoried by FDIC Division of
       Resolutions and Receivorships personnel. The inventoried
       documents comprised over 500 boxes. We identified from
       FDIC’s inventory list those documents for our review that
       were most likely to shed light on the reasons for the thrift’s
       failure and OTS’s supervision of the institution. We did not
       review each and every document in the 500 boxes.

   •   We judgmentally sampled 22 IndyMac loan files from a
       universe of delinquent loans in the thrift’s held to maturity
       portfolio as of August 31, 2008. This universe included
       63,935 loans totaling a little over $13 billion. The
       delinquency period for the loans was 90 or more days. Our
       sample included a cross-section of the thrift’s loan products,
       such as adjustable rate mortgages, stated income loans, and
       subprime loans. The purpose of our review was to assess
       IndyMac’s underwriting of these loans. We also discussed
       these loans with IndyMac officials who were still with the
       thrift after its take over by FDIC. We performed this review
       during our visits to IndyMac in September and November
       2008. We conducted this review using IndyMac’s computer
       system (MIPS), which contained pertinent loan information.
       The MIPS provided us with information such as the type of
       loan and the associated terms, borrower name, property
       location, interest rate, loan amount FICO scores and LTVs.
       Other information such as the broker, lender, and the debt-
       to-income ratio were not consistently found in MIPS. We
       were also able to review hard copy documentation loan files
       for 15 of the loans. For 7 of the loans, however, hard copy
       documentation had been sent to an offsite storage facility
       and was not available for our review.

We conducted our fieldwork from September 2008 through
December 2008. We conducted this audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 39
Appendix 2
Background


IndyMac Bank, FSB, History

Since its inception, IndyMac Bank, FSB (IndyMac), and its
predecessor entities focused on home mortgage lending. IndyMac
Mortgage Holding, Inc. (IndyMac Mortgage), was established in
1985 as a real estate investment trust (REIT) by Countrywide
Credit Industries. In 1993, IndyMac Mortgage transitioned its
business model to become a mortgage lender. During the global
liquidity crisis in late 1998, many non-regulated financial
institutions, mortgage lenders, and mortgage REITs were adversely
impacted or did not survive. In response to this, IndyMac Mortgage
determined it would be advantageous to become a depository
institution. This would provide significant advantages in the form of
diversified financing sources, the retention of capital to support
growth, and a strong platform for the origination of mortgages.

IndyMac Mortgage terminated its status as a REIT on January 1,
2000, and converted to a fully taxable entity. On July 1, 2000, the
entity acquired SGV Bancorp, Inc., which then was the parent of
First Federal Saving and Loan Association of San Gabriel Valley,
California, a federal savings association. The entity contributed
substantially all of its assets and operations to the savings
association and was renamed IndyMac Bank, FSB. IndyMac
commenced operations on July 1, 2000, with $5.1 billion total
assets. IndyMac operated as a wholly owned subsidiary of the
publicly traded holding company, IndyMac Bancorp, Incorporated.

As a chartered thrift, IndyMac had access to deposits and Federal
Home Loan Bank borrowings to strengthen and diversify its funding
base. Consistent with its predecessor entities, the thrift originated
residential loans for sale and securitization, as well as to hold for
its investment portfolio. Residential mortgage lending and mortgage
banking activity remained its primary focus.

On July 16, 2004, IndyMac entered the reverse mortgage industry
through the acquisition of nearly 94 percent of the outstanding
common stock of Financial Freedom Holdings, Inc., the leading
provider of reverse mortgages in the United States, and the related
assets from Lehman Brothers Bank, FSB, and its affiliates. The
remaining shares of common stock were purchased from Financial
Freedom’s chief executive officer in July 2006.


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 40
Appendix 2
Background




From June 2005 to June 2007, IndyMac grew from $13 billion in
total assets to over $31 billion. The growth was mainly due to the
production pipeline consisting predominately of Alt-A loans.
Starting in the third quarter of 2007, IndyMac was unable to sell or
securitize its loan production. As a result, $10.7 billion of loans
that it intended to sell remained on its own books in its held to
maturity account. IndyMac recorded a $474 million adjustment in
the fourth quarter of 2007 to cover estimated future losses
associated with loans. At March 31, 2008, its loans held to
maturity account totaled $1.4 billion, a 51.4 percent increase since
2007. The majority of loans recorded to this account were those
that it was unable to sell or securitize.

On June 20, 2008, the Office of Thrift Supervision (OTS)
completed a comprehensive examination of IndyMac and assigned
a composite CAMELS rating of 5 to the institution. The composite
rating reflected the significant deterioration of the thrift from the
first quarter 2008 and the institution’s viability was in question.

On June 26, 2008, Senator Charles Schumer publicly released a
letter to the Federal Deposit Insurance Corporation (FDIC) and OTS
outlining his concerns over IndyMac's viability and potential loss to
the Deposit Insurance Fund. A deposit run on the thrift began on
June 27, 2008, and continued through July 11, 2008, resulting in
net withdrawals totaling $1.55 billion. On July 11, 2008 OTS
placed IndyMac into receivership, formed a newly chartered thrift,
and named the FDIC as conservator for the new thrift, called
IndyMac Federal Bank, FSB. On Wednesday December 31, 2008,
FDIC signed a letter of intent to sell the banking operations of
IndyMac Federal Bank, FSB, to a thrift holding company controlled
by IMB Management Holdings LP, a limited partnership.

Appendix 4 contains a chronology of significant events regarding
IndyMac.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 41
                      Appendix 2
                      Background


                      Office of Thrift Supervision

                      Types of Examinations Conducted by OTS

                      As required by law, OTS conducts full-scope, on-site examinations
                      of insured depository institutions with assets over $500 million, as
                      in the case of IndyMac, once a year.10 OTS also conducts limited
                      examinations under certain conditions which focus on high-risk
                      areas. In addition, OTS conducts information technology
                      examinations to evaluate the institution’s compliance with
                      applicable rules and policies of the OTS.

                      OTS uses the CAMELS rating system to evaluate a thrift’s overall
                      condition and performance by assessing six rating components.
                      The six components are Capital Adequacy, Asset Quality,
                      Management, Earnings, Liquidity, and Sensitivity to Market Risk.
                      OTS then assigns each institution a composite rating based on the
                      examiner’s assessment of its overall condition and level of
                      supervisory concern. Composite and component ratings are
                      assigned based on a 1 to 5 numerical scale. A 1 indicates the
                      highest rating, strongest performance and risk management
                      practices, and least degree of supervisory concern, while a 5
                      indicates the lowest rating, weakest performance, inadequate risk
                      management practices, and the highest degree of supervisory
                      concern. A full-scope examination also looks at the thrift’s
                      compliance with fair lending, consumer protection, and other public
                      interest laws and regulations, such as the Bank Secrecy Act.

                      The examination team prepares a Report of Examination (ROE)
                      incorporating program findings and conclusions. OTS regional staff
                      send the ROE to 1- and 2-rated thrifts within 30 days from
                      completion of on-site examination activities, and to 3, 4, and 5
                      rated associations within 45 days from completion of on-site
                      examination activities.

                      OTS provides FDIC information on and access to thrifts that
                      represent a heightened risk to the Deposit Insurance Fund. OTS
                      presumes heightened risk to be a thrift with a composite rating of
                      3, 4, or 5 or a thrift that is undercapitalized as defined under

10
 OTS is permitted to conduct examinations of thrifts with assets less than $500 million on an 18-
month cycle if certain criteria are met.

                      Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                  Page 42
Appendix 2
Background


Prompt Corrective Action (PCA). FDIC may request participation in
examinations when a thrift exhibits material deteriorating
conditions that could result in the institution becoming troubled in
the near future. In this regard, FDIC may need to develop
contingency plans for a thrift’s possible failure or begin the
resolution process.

Types of Enforcement Actions Available to OTS

OTS uses informal and formal enforcement tools to carry out its
supervisory and enforcement responsibilities; to address violations
of laws and regulations, conditions imposed in writing and written
agreement with the agency; and to address unsafe and unsound
practices.

   Informal Enforcement Actions

   In accordance with OTS’s enforcement handbook, when a
   thrift’s overall condition is sound, but it is necessary to obtain
   strong commitment from the board of directors or management
   to ensure they will correct the identified problems and
   weaknesses, OTS may use informal enforcement actions. OTS
   commonly uses informal enforcement actions to address
   problems for well or adequately capitalized thrifts, thrifts with a
   composite rating of 1 or 2, or thrifts with a 3 rating but strong
   management. Informal enforcement actions are not made
   public.

   Informal enforcement actions put the board and management on
   notice that OTS has identified problems in case a formal action
   is needed in the future. Informal actions may include:

   •   meetings with management and/or board of directors
   •   board of directors’ resolutions
   •   supervisory letters and directives
   •   special examinations
   •   requests for voluntary management changes or
       reorganizations
   •   notice of deficiency and request for safety and soundness
       compliance plan
   •   individual minimum capital requirements


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 43
Appendix 2
Background




   The effectiveness of informal actions depends on the
   willingness and ability of the thrift to correct deficiencies
   identified by OTS. If the thrift violates or refuses to comply,
   OTS cannot enforce compliance in federal court or assess civil
   money penalties. However, a thrift’s unwillingness to comply is
   a significant factor in determining whether a formal enforcement
   action is appropriate.

   Formal Enforcement Actions

   A formal enforcement action is both written and enforceable.
   Formal actions are appropriate when a thrift has significant
   problems, especially when there is a threat of harm to the thrift,
   depositors, or the public. OTS uses formal enforcement actions
   when informal actions are inadequate, ineffective, or unlikely to
   correct safety and soundness or compliance problems. The
   most frequently used formal enforcement actions used by OTS
   are:

   •   formal written agreements (Supervisory Agreements)
   •   cease and desist orders
   •   civil money penalties
   •   PCA directives

   OTS can assess civil money penalties against the thrift and
   individuals for noncompliance with a formal action. OTS can
   also request a federal court to issue an injunction requiring the
   thrift to comply with the order. Unlike informal actions, formal
   enforcement actions are public.

   OTS Enforcement Guidelines

   Considerations for determining whether to use an informal
   supervisory action or take a formal enforcement action include:

   •   the extent of actual or potential damage, harm, or loss to the
       thrift because of the action or inaction
   •   whether the thrift has repeated the illegal action or unsafe or
       unsound practice
   •   the likelihood the conduct may occur again

Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 44
Appendix 2
Background



    •   the thrift’s record for taking corrective action in the past
    •   the capability, cooperation, integrity, and commitment of the
        thrift’s management, board of directors, and ownership to
        correct identified problems
    •   the extent to which the identified problems were preventable
        and not solely the result of external factors
    •   the effect of the illegal, unsafe, or unsound conduct on other
        financial institutions, depositors, or the public
    •   the examination rating of the thrift
    •   whether the thrift’s condition is improving or deteriorating
    •   the presence of unique circumstances
.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 45
                  Appendix 3
                  Glossary of Terms




10-K                             An annual report filed by publicly-traded companies
                                 with the Securities and Exchange Commission
                                 presenting a financial overview of the company during
                                 the year.

10-Q                             A comprehensive report of a company's performance
                                 that must be submitted quarterly by all public
                                 companies to the Securities and Exchange
                                 Commission. In the 10-Q, firms are required to
                                 disclose relevant information regarding their financial
                                 position.

80/20 loan                       Requires no borrower down payment or mortgage
                                 insurance for this fully financed loan, which is written
                                 as two separate loans of 80 percent and 20 percent.

Asset/Liability Committee        Senior management committee in a bank or thrift
                                 institution, responsible for coordinating the
                                 institution's borrowing and lending strategy, and funds
                                 acquisition to meet profitability objectives as interest
                                 rates change. This committee also monitors actions by
                                 the Federal Reserve that may affect interest rates,
                                 such as a change in the Federal Reserve federal funds
                                 rate.

Allowance for loan and           A valuation reserve established and maintained by
lease losses                     charges against the financial institution’s operating
                                 income. As a valuation reserve, it is an estimate of
                                 uncollectible amounts that is used to reduce the book
                                 value of loans and leases to the amount that is
                                 expected to be collected. These valuation allowances
                                 are established to absorb unidentified losses inherent
                                 in the institution’s overall loan and lease portfolio.

Alt-A loan                       A mortgage made to a borrower that typically does
                                 not involve verification or documentation of income,
                                 assets, or employment. Instead, the approval of the
                                 loan is based primarily on the applicant’s FICO score.




                  Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 46
                    Appendix 3
                    Glossary of Terms


Baseline factor                    Represents loss history and default possibilities that
                                   are established to calculate allowance for loan and
                                   lease losses (ALLL) and should reflect each segment
                                   of an institution’s portfolio.

Brokered deposits                  A deposit that is obtained, directly or indirectly, from
                                   a deposit broker. When a bank or thrift is less than
                                   well-capitalized, according to the “prompt corrective
                                   action” provisions of 12 CFR 6, the term “brokered
                                   deposits” may apply to any deposits it solicits by
                                   offering rates of interest that are significantly higher
                                   than the rates offered by other insured depository
                                   institutions in its normal market area. Under 12 USC
                                   1831f and 12 CFR 337.6, the use of brokered
                                   deposits is limited to well-capitalized insured
                                   depository institutions and, with a waiver from the
                                   Federal Deposit Insurance Corporation (FDIC), to
                                   adequately capitalized institutions. Undercapitalized
                                   institutions are not permitted to accept brokered
                                   deposits

CAMELS                             An acronym for the performance rating components:
                                   Capital adequacy, Asset quality, Management
                                   administration, Earnings, Liquidity, and Sensitivity to
                                   market risk. Numerical values range from 1 to 5, with
                                   1 being the highest rating and 5 representing the
                                   worst-rated banks.

Capital restoration plan           A plan (CRP) submitted to the appropriate federal
                                   banking agency by any undercapitalized insured
                                   depository institution. A CRP specifies the steps the
                                   insured depository institution will take to become
                                   adequately capitalized, the levels of capital to be
                                   attained during each year in which the plan will be in
                                   effect, how the institution will comply with the
                                   restrictions or requirements then in effect, the types
                                   and levels of activities in which the institution will
                                   engage, and any other information that the federal
                                   banking agency may require.




                    Material Loss Review of IndyMac Bank, FSB (OIG-09-032)            Page 47
                     Appendix 3
                     Glossary of Terms


Concentration risk                  Risk in a loan portfolio that arises when a
                                    disproportionate number of an institution’s loans are
                                    concentrated in one or a small number of financial
                                    sectors, geographical areas, or borrowers. If loans are
                                    more broadly distributed, weaknesses confined to one
                                    or a small number of sectors, areas, or borrowers
                                    would pose a smaller risk to the institution’s financial
                                    health.

Conditional prepayment rate         A loan prepayment rate that is equal to the proportion
                                    of the principal of a pool of loans that is assumed to
                                    be paid off prematurely in each period. The calculation
                                    of this estimate is based on a number of factors such
                                    as historical prepayment rates for previous loans that
                                    are similar to ones in the pool and on future economic
                                    outlooks.

Debt-to-income                      Ratio of the borrower’s monthly obligations compared
                                    with the borrower’s gross income. According to Office
                                    of Thrift Supervision (OTS) Examination Handbook,
                                    Section 217, Asset Quality, lenders may establish
                                    relatively low maximum allowable ratios such as 40
                                    percent, or a higher allowable ration such as 50
                                    percent. An institution’s board of directors should
                                    establish underwriting standards that include prudent
                                    ratios that are appropriate for products in the
                                    institution’s lending area that does not expose the
                                    institution to inordinate levels of credit risk.

Federal Home Loan Bank              A government sponsored enterprise (GSE) chartered
                                    by Congress in 1932. Its purpose is to support
                                    residential mortgage lending and community
                                    investment at the local level by providing primary
                                    direct loans to its more than 8,000 member financial
                                    institutions (primarily banks and thrift institutions).
                                    Each member institution is a shareholder in 1 or more
                                    of 12 regional Federal Home Loan Banks (FHLB),
                                    which are privately capitalized, separate corporate
                                    entities. The system’s Office of Finance is its
                                    centralized debt issuance facility. The funds obtained



                     Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 48
                   Appendix 3
                   Glossary of Terms


                                  through debt issuance are used to support FHLB
                                  activities.

FICO score                        Credit scores provided to lenders by credit reporting
                                  agencies to reflect information that each credit bureau
                                  keeps on file about the borrower and are produced
                                  from software developed by Fair Isaac and Company.
                                  The credit scores take into consideration borrower
                                  information such as (1) timeliness of payments; (2)
                                  the length of time credit has been established; (3) the
                                  amount of credit used versus the amount of credit
                                  available; (4) the length of time at present residence;
                                  and (5) negative credit information such as
                                  bankruptcies, charge-offs, and collections. The higher
                                  the credit score is, the lower the risk to the lender.

Government Sponsored              Privately held corporations with public purposes
Enterprise                        created by the U.S. Congress to reduce the cost of
                                  capital for certain borrowing sectors of the economy.
                                  GSEs carry the implicit backing of the U.S.
                                  Government, but they are not direct obligations of the
                                  U.S. Government. Examples of GSEs include: Federal
                                  Home Loan Banks, Fannie Mae, Freddie Mac and the
                                  Federal Farm Credit Bank.

Home equity line of credit        A form of revolving credit, similar to a credit card,
                                  which is secured by your home, with a set maximum
                                  credit limit. The revolving line of credit offers the
                                  borrowers the flexibility to borrow funds when they
                                  need them up to the total line of credit amount. Home
                                  equity lines of credit are also commonly known as
                                  HELOC loans.

Loan to value                     Ratio for a single loan and property calculated by
                                  dividing the total loan amount at origination by the
                                  market value of the property securing the credit plus
                                  any readily marketable collateral or other acceptable
                                  collateral. In accordance with Interagency Guidelines
                                  for Real Estate Lending Polices dated October 12,
                                  1999, institutions’ internal loan to value ratios should
                                  not exceed (1) 65 percent for raw land; (2) 75 percent


                   Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 49
                    Appendix 3
                    Glossary of Terms


                                   for land development; and (3) 80 percent for
                                   commercial, multifamily, and other non residential
                                   loans. The Guidelines do not require that institutions
                                   prescribe a limitation loans for owner-occupied one- to
                                   four-family properties and home equity loans.
                                   However, when loan-to-value (LTV) ratios exceed 90
                                   percent at the time of origination, the Guidelines
                                   prescribe mortgage insurance or readily marketable
                                   collateral should be available.

Loan to one borrower               In accordance with 12 CFR section 560.93 regulations
                                   that impose lending limitations on thrifts to avoid the
                                   risk of concentrating too great of a portion of their
                                   assets in any single borrower who are related in a
                                   common enterprise. It limits the aggregate dollar
                                   amount of an association’s loans to each borrower,
                                   but does not limit the number of loans to any one
                                   borrower with that aggregate dollar limitation.

Look-back periods                   An approach to validate ALLL methodology by
                                   comparing actual losses to anticipated losses in an
                                   ALLL calculation.

Matter requiring board attention A thrift practice noted during an OTS examination
                                 that deviates from sound governance, internal control,
                                 and risk management principles, and which may
                                 adversely impact the bank’s earnings or capital, risk
                                 profile, or reputation, if not addressed; or result in
                                 substantive noncompliance with laws and regulations,
                                 internal policies or processes, OTS supervisory
                                 guidance, or conditions imposed in writing in
                                 connection with the approval of any application or
                                 other request by the institution. A matter requiring
                                 board attention (MRBA) is not a formal enforcement
                                 action per se. Nevertheless, OTS requires that thrifts
                                 address the matter and failure to do so may result in a
                                 formal enforcement action.

Moody’s Investor Service           Used as a source for credit ratings, research and risk
                                   analysis. The service provides research data and



                    Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 50
                   Appendix 3
                   Glossary of Terms


                                  analytic tools for assessing credit risk, and publishes
                                  market-leading credit opinions.

Mortgage servicing rights         A contractual agreement where the rights to service
                                  an existing mortgage are sold by the original lender to
                                  another party who specializes in servicing mortgages.
                                  Common services rights included are the right to
                                  collect mortgage payments monthly, set aside taxes
                                  and insurance premiums in escrow, and forward
                                  interest and principle to the mortgage lender.

Negative amortization             A loan repayment schedule in which the outstanding
                                  principal balance of the loan increases, rather than
                                  amortizing, because the scheduled monthly payments
                                  do not cover the full amount required to amortize the
                                  loan. The unpaid interest is added to the outstanding
                                  principal, to be repaid later.

No Doc loan                       Short for "no-documentation loan." A mortgage in
                                  which the applicant provides a minimum amount of
                                  information -- name, address, Social Security number
                                  (so credit reports can be pulled), and contact
                                  information for an employer, if there is one. The
                                  underwriter decides on the loan based on the
                                  applicant's credit history, the appraised value of the
                                  house and size of down payment.

Non-conforming loans              Loans that do not have terms and conditions that
                                  follow the guidelines set forth by Fannie Mae and
                                  Freddie Mac. These two stockholder-owned
                                  corporations purchase mortgage loans complying with
                                  the guidelines from mortgage lending institutions,
                                  packages the mortgages into securities and sell the
                                  securities to investors. By doing so, Fannie Mae and
                                  Freddie Mac, like Ginnie Mae, provide a continuous
                                  flow of affordable funds for home financing that
                                  results in the availability of mortgage credit for
                                  Americans. Fannie Mae and Freddie Mac guidelines
                                  establish the maximum loan amount, borrower credit
                                  and income requirements, down payment, and suitable



                   Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 51
                   Appendix 3
                   Glossary of Terms


                                  properties. Fannie Mae and Freddie Mac announce
                                  new loan limits every year.

Option ARM                        A mortgage loan in which the interest rate is
                                  periodically adjusted based on a variety of indices.

Pipeline                          Loans inventoried in an institution’s held for sale
                                  portfolio to be sold to investors.

Prompt Corrective Action          Prompt Corrective Action (PCA) is a framework of
                                  supervisory actions, set forth in 12 USC § 1831, for
                                  insured depositary institutions that are not adequately
                                  capitalized. It was intended to ensure that action is
                                  taken when an institution becomes financially troubled
                                  in order to prevent a failure or minimize resulting
                                  losses. These actions become increasingly severe as
                                  the institution falls into lower capital categories. The
                                  capital categories are well-capitalized, adequately
                                  capitalized, undercapitalized, significantly
                                  undercapitalized, and critically undercapitalized.

Real Estate Investment Trust      A security that sells like a stock on the major
                                  exchanges and invests in real estate directly, either
                                  through properties or mortgages.

Reverse mortgage                  A special type of home loan that lets a homeowner
                                  convert the equity in his or her home into cash. The
                                  equity built up over years of home mortgage payments
                                  can be paid to the homeowner in a lump sum, in a
                                  stream of payments, or as a supplement to Social
                                  Security or other retirement funds. But unlike a
                                  traditional home equity loan or second mortgage, no
                                  repayment is required until the borrowers no longer
                                  use the home as their principal residence.

Risk weighted assets              Used in terms of establishing the minimum amount of
                                  capital that is required within institutions that is
                                  based on a percentage of the assets, weighted by
                                  risk. Requires the institution to assess the risk
                                  associated with the loans in its portfolio, and those



                   Material Loss Review of IndyMac Bank, FSB (OIG-09-032)               Page 52
                    Appendix 3
                    Glossary of Terms


                                   that hold more risk would require more capital for the
                                   institution.

Standard & Poor’s                  World provider of independent credit ratings, indices,
                                   risk evaluation, investment research and data.

Subprime                           Loans for borrowers with (1) FICO score of less than
                                   620, (2) late mortgage payment in the last 12 months
                                   (3) bankruptcy in the last 24 months, and/or (4)
                                   foreclosure in the last 36 months.

Thrift Financial Report            A financial report that thrifts are required to file
                                   quarterly with OTS. The report includes detailed
                                   information about the institution's operations and
                                   financial condition, and must be prepared in
                                   accordance with generally accepted accounting
                                   principles. The thrift financial report for thrifts is
                                   similar to the call report required of commercial banks.

Tier 1 capital                     Represents common shareholder’s equity (common
                                   stock, surplus, and retained earnings), non-cumulative
                                   perpetual preferred stock, and minority interests in the
                                   equity accounts of consolidated subsidiaries. In
                                   accordance with Financial Institutions Reform,
                                   Recovery, and Enforcement Act of 1989, OTS
                                   requires Tier 1 core capital to represent 4 percent of
                                   total assets adjusted for investment in subsidiaries,
                                   gains and losses on available-for-sale securities, and
                                   certain hedges. (3 percent if the thrift’s composite
                                   CAMELS rating is 1).

Tier 2 capital (supplementary)     Consists of subordinated debt, intermediate-term
                                   preferred stock, cumulative and long-term preferred
                                   stock, and a thrift’s ALLL up to 1.25 percent or risk-
                                   weighted assets. Tier 2 may not exceed Tier 1 capital.

Total risk based capital           The sum of Tier 1 and Tier 2 capital. In accordance
                                   with Financial Institutions Reform, Recovery, and
                                   Enforcement Act of 1989, OTS requires risk based
                                   capital to represent 8 percent of risk-weighted assets
                                   of the thrift.


                    Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 53
                    Appendix 3
                    Glossary of Terms




Uniform Standard of                Includes requirements of appraisers that are
Professional Appraisal             established to maintain public trust in appraisal
Practice                           practice. It reflects the current standards for the
                                   appraisal profession that are established by the
                                   Appraisal Foundation and required by OTS to be
                                   followed.

Volatile funding source            Source of funds that may present a potential risk to
                                   earnings and capital associated with brokered or other
                                   rate-sensitive deposits that may be only temporarily
                                   available or require premium rates to retain.

Wholesale lending                  A lender’s acquiring of loans from mortgage brokers.
                                   The borrower pays a provider fee to the broker to
                                   obtain the loan. Wholesale lenders may specialize in
                                   different type of loans, such as subprime, reverse
                                   mortgage, Alt-A, commercial and investment
                                   properties.




                    Material Loss Review of IndyMac Bank, FSB (OIG-09-032)               Page 54
                   Appendix 4
                   Chronology of Events




The following chronology describes significant events in the history of IndyMac Bank,
FSB (IndyMac), including examinations conducted and enforcement actions taken by
the Office of Thrift Supervision (OTS).

7/1/2000           IndyMac Mortgage Holdings, Inc. (IndyMac Mortgage), which was
                   established in 1985 as a real estate investment trust, completes
                   the acquisition of SGV Bancorp and its thrift subsidiary, First
                   Federal Savings and Loan Association of San Gabriel Valley
                   (FFSGV). IndyMac Mortgage changed its name to IndyMac Bancorp
                   and FFSGV changed its name to IndyMac. IndyMac is wholly
                   owned by IndyMac Bancorp, and commenced operations with $5.1
                   billion in assets. Its operating strategy was essentially the same as
                   that of IndyMac Mortgage before the acquisition, with the primary
                   change being the expansion of funding sources to include Federal
                   Deposit Insurance Corporation (FDIC)-insured deposits and Federal
                   Home Loan Bank (FHLB) advances.

4/16/2001          OTS begins a comprehensive examination of IndyMac. The
                   examination was completed on June 15, 2001, and assigned
                   composite/individual CAMELS ratings of 2/23322. FDIC examiners
                   participated in the examination.

8/24/2001          Due to continued asset quality and management concerns, OTS
                   downgraded IndyMac’s composite CAMELS rating from 2 to 3, and
                   requested IndyMac to temper its growth until the deficiencies
                   noted in the April 16, 2001, report of examination (ROE) had been
                   satisfactorily addressed. OTS requested IndyMac management to
                   meet monthly with the OTS Assistant Regional Director, West
                   Region.

6/17/2002          OTS conducts a field visit to follow-up on previous examination
                   and field visit concerns related to IndyMac’s appraisal policies and
                   procedures, appraisal review practices, and appraisal methodology.
                   Several large loans originated by IndyMac’s Home Builders Division
                   (HBD) were also reviewed. The field visit report indicates a
                   separate investigation of appraisal activities was conducted and
                   concluded on December 10, 2002. OTS concluded that existing
                   appraisals and underwriting were sufficient to mitigate risks that
                   the supervisory LTV guidance is meant to address.



                   Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 55
             Appendix 4
             Chronology of Events


7/29/2002    OTS performs a comprehensive examination that was completed
             on November 1, 2002. The ROE assigned ratings of 2/232222.
             OTS noted that IndyMac hired a new chief commercial appraiser to
             assess the appraisal function at the thrift.

9/29/2003    OTS begins a comprehensive examination. The examination was
             completed on December 18, 2003, and assigned ratings of
             2/222223.

7/16/2004    IndyMac Bancorp, the holding company, completed an equity
             offering that yielded net proceeds of approximately $100 million.
             The same day, the holding company acquires Financial Freedom
             Holdings, Inc., a reverse mortgage lender, for approximately $56
             million.

11/15/2004   OTS begins a comprehensive examination. The examination was
             completed on January 27, 2005, and assigned ratings of
             2/222223. The ROE noted OTS agreed to IndyMac’s revised
             targeted core and total risk-based capital ratios of 7.0 and 11.25,
             percent after taking into consideration subprime loans, respectively,
             for the year ending December 31, 2005.

June 2005    IndyMac opens another branch office bringing its total number of
             branch offices to 22, an increase of 11 branch offices since June
             2004 in an effort to strengthen core deposits.

8/22/2005    OTS conducts a field visit to review actions taken by IndyMac in
             response to the November 15, 2004, ROE. The scope included a
             review of risk management practices which OTS had directed the
             thrift to enhance. OTS concluded that management made progress
             in implementing an enhanced market risk management
             framework. OTS also concluded that management was aware that
             enhancements were needed in the development of net income
             modeling capability, and in the development of a Capital Plan/Policy
             for IndyMac Bancorp.

11/7/2005    OTS performs a comprehensive examination. The ROE was
             completed on January 20, 2006, and assigned ratings of
             2/222222.




             Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 56
            Appendix 4
            Chronology of Events


4Q2005      IndyMac received a $165 million capital infusion from IndyMac
            Bancorp.

1Q2006      IndyMac increased it branch offices to 26.

1/2007      IndyMac revised its underwriting standards for 80/20 loans by
            eliminating stated income loans for borrowers with FICO scores of
            less than 660 to show it was making efforts to reduce risk in its
            portfolio.

1/8/2007    OTS begins a comprehensive examination. The examination was
            completed on March 21, 2007, and assigned ratings of 2/222222.

2/26/2007   IndyMac makes a number of underwriting changes and updates its
            internal guidance: (1) held-for-sale, 80/20, and subprime loan
            underwriting guidelines are tightened; (2) the Home Builders
            Division (HBD) cuts portfolio dollar limits on condominiums, and
            cuts the maximum loan size by 75 percent and relationship by 60
            percent; and (3) the Home Construction Lending (HCL) division
            eliminated investor loans, required participating builders to have at
            least 5 years of experience, and increased borrower liquidity and
            FICO score requirements. IndyMac also announced that it would
            stop acquiring option ARM loans from mortgage brokers. This was
            in response to concerns that subprime problems would carry over
            into the rest of the real estate market.

4/1/2007    IndyMac Bancorp executed an agreement with New York Mortgage
            Trust, Incorporated, to purchase certain assets for approximately
            $13.4 million, which included an $8 million premium to the net
            book value of assets acquired. This was a $2 billion retail mortgage
            origination business with 32 office locations.

7/19/2007   IndyMac laid-off 400 employees, which IndyMac’s CEO stated in
            an e-mail to employees, would save IndyMac $30 million a year
            after a third quarter 2007 pre-tax charge of $6.5 million for
            severance payments for these employees.

8/14/2007   IndyMac projects losses of $30 million for the third quarter, the
            first quarterly loss in its history.




            Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 57
             Appendix 4
             Chronology of Events


08/22/2007   IndyMac initiated significant changes to their multi-channel, Alt-A
             mortgage banking business model and established a new business
             strategy of primarily being an originator of conforming loans (loans
             that are under Fannie Mae and Freddie Mac limits and meet their
             standards for purchase) and a reverse mortgages lender. IndyMac
             eliminated various product lines including: (1) subprime loans,
             except those saleable to Fannie and Freddie; (2) 80/20 loans and
             (3) option ARM loans. IndyMac stopped purchasing loans from
             mortgage brokers.

8/29/2007    IndyMac assumes the leases of 100 American Home Mortgage
             offices and hires 1,400 American Home staff in a continued effort
             to expand its retail lending operations and move away from
             purchasing loans originated by mortgage brokers.

9/7/2007     IndyMac announces plans to eliminate up to 1,000 jobs and make
             other strategic changes.

11/6/2007    IndyMac Bancorp reports a net loss of nearly $203 million for the
             third quarter.

12/20/2007   IndyMac projects fourth quarter 2007 and first quarter 2008 losses
             of $153 million and $21 million, respectively. It attributes the
             projected losses primarily to increased credit losses and securities
             losses, and write-downs on loans that it had intended to sell but
             transferred to the thrift’s held to maturity portfolio when the
             secondary market dried up.

12/20/2007   OTS contacts FDIC to participate on the comprehensive
             examination to begin January 7, 2008, because of IndyMac’s
             deteriorating condition.

4Q2007       IndyMac transfers $10.7 billion in loans it intends to sell to its held
             to maturity portfolio.

1/7/2008     OTS began a comprehensive examination of IndyMac. The
             examination is started 4 months ahead of schedule due to concerns
             noted from off-site monitoring and meetings with management.
             Three FDIC examiners participated on the exam.




             Material Loss Review of IndyMac Bank, FSB (OIG-09-032)           Page 58
             Appendix 4
             Chronology of Events


1/15/2008    IndyMac’s Chief Executive Officer (CEO) announced a reduction in
             staff due to reduced loan originations.

1/17/2008    OTS downgraded IndyMac’s CAMELS composite rating to 3 and
             lowered the asset quality and earnings component ratings to 4
             based on results of off-site monitoring and initial findings of the
             examination started on January 7, 2008.

1Q2008       IndyMac Bancorp announced that it suspended common stock
             dividends.

2/12/2008    IndyMac Bancorp announces net loss of $509 million for the fourth
             quarter 2007. The loss included a $600 million write-down on the
             $10.7 billion of loans transferred to the held to maturity portfolio.

04/04/2008   OTS officials met with IndyMac’s board of directors of the thrift in
             regards to dividend restrictions, the need for a capital cushion, and
             the need for the IndyMac Bancorp to build capital.

5/27/2008    FHLB San Francisco increases collateral requirements for IndyMac
             portfolios of held-for-sale loans and held to maturity loans.

6/3/2008     IndyMac, for the first time, projected its total risk based capital
             ratio will fall below the well-capitalized level as of June 30, 2008.

6/11/2008    OTS presented IndyMac with a memorandum Of understanding
             (MOU). IndyMac’s board signed the MOU on June 26, 2008.

6/20/2008    OTS issued the ROE for the examination started on January 7,
             2008. OTS downgraded IndyMac’s rating to 5/454554.

6/20/2008    The MOU became effective and required management to
             (1) improve capital, (2) reduce problem assets, (3) build liquidity
             and improve contingency plans, and (4) build core earnings to
             attain profitability. The MOU also directs IndyMac to provide OTS
             with planning documents and reports. Additionally, the holding
             company and the thrift are prohibited from paying dividends
             without prior OTS approval.

06/20/2008   IndyMac’s CEO states in a conference call with officials of OTS
             and FDIC that he now expects a second quarter 2008 loss of $120


             Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 59
            Appendix 4
            Chronology of Events


            million driven mostly by continued mortgage backed securities
            downgrades from rating agencies. The CEO also states that a
            potential investor, has hired an investment company to help
            conduct due diligence.

6/25/2008   OTS met with IndyMac management and three of its board
            members to review their capital raising efforts and contingency
            plans in the event additional capital is not available.

6/25/2008   IndyMac projected that its second quarter 2008 Tier 1 core capital
            would be 4.46 percent (adequately capitalized) and total risk based
            capital would be 7.28 percent (under capitalized). IndyMac,
            however, also projected that it would be profitable by the third
            quarter 2009 but this forecast assumed there would be no
            additional capital infusion and the thrift would close all single
            family residential retail and wholesale lending operations and
            reduce its work force by almost 3,000 employees.

6/25/2008   OTS and FDIC officials held the exit meeting on its January 2008
            examination. IndyMac management was informed of the composite
            5 rating assigned by the examination and the nature of the
            enforcement actions OTS was considering, which was the MOU
            (signed on June 26, 2008). At this meeting, IndyMac’s CEO stated
            that he expected a decision regarding the potential investor within
            the next few days. The CEO also stated that an investment firm
            had re-engaged 96 potential investors and that 20 of these
            potential investors had expressed interest in IndyMac’s reverse
            mortgage operations.

6/26/2008   Negative press reports were published regarding the viability of
            IndyMac. In the three days leading up to the reports, IndyMac
            reported to OTS net deposit inflows of $7.3 million (on June 24,
            2006), $23.1 million (on June 25, 2008), and $1.8 million (on
            June 26, 2008).

6/26/2008   Senator Charles Schumer sends a letter to OTS and FDIC and
            releases it to the public pointing out problems with the thrift that
            the regulators need to be aware of and take actions to correct. The
            letter identified problems with the thrift’s loan holdings and that
            the thrift had been dependent on brokered deposits. The letter
            suggested the thrift was on the verge of failure.


            Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 60
            Appendix 4
            Chronology of Events




6/27/2008   IndyMac begins to provide hourly deposit outflow information and
            daily cash flow reports to OTS. The daily cash flow reports show
            the following net deposit outflows from June 27 to July 11, 2008
            totaling $1.55 billion.

               6/27/2008 (Friday)                  $4.5 million
               6/28/2008 (Saturday                 $78.2 million
               6/29/2008 (Sunday)                  $118,000
               6/30/2008 (Monday)                  $84.5 million
               7/1/2008 (Tuesday)                  $205.6 million
               7/2/2008 (Wednesday)                $147.4 million
               7/3/2008 (Thursday)                 $128.7 million
               7/4/2008 (Friday)                   $238,000
               7/5/2008 (Saturday)                 $45.8 million
               7/6/2008 (Sunday)                   $132,000
               7/7/2008 (Monday)                   $97.5 million
               7/8/2008 (Tuesday)                  $185.1 million
               7/9/2008 (Wednesday)                $209.2 million
               7/10/2008 (Thursday)                $115.0 million
               7/11/2008 (Friday)                  $250.0 million (Date Closed)

7/1/2008    OTS sent a Troubled Condition Letter to IndyMac, which did the
            following:

               •   restricted changes in management or the board composition;
               •   restricted transactions with affiliates
               •   established growth restrictions and dividend payments
                   restrictions
               •   restricted severance payments and other “golden parachute
                   payments”
               •   removed qualification for expedited treatment of applications
                   and notices filed with OTS and notified the thrift it was now
                   subject to higher assessments

7/1/2008    OTS issued a Supervisory Directive to IndyMac which required
            IndyMac to:

                   •   finalize a new operating plan and submit it for OTS
                       approval within 20 days
                   •   report progress on meeting the approved plan


            Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                Page 61
            Appendix 4
            Chronology of Events



                   •   effective July 7, 2008, close the retail and wholesale
                       forward mortgage lending units and no longer accept new
                       rate locks in those units
                   •   establish a concentration limit acceptable to OTS for
                       reverse mortgage loans
                   •   continue to comply with all understandings contained in
                       the MOU effective 6/20/2008
                   •   no longer except brokered deposits which required a
                       request for a waiver from the FDIC

7/1/2008    In a letter, Federal Reserve Bank informed IndyMac that it was no
            longer considered to be in sound condition. IndyMac was also
            informed that it was subject to higher borrowing rates.

7/2/2008    Federal Reserve Bank informed IndyMac that the thrift has no funds
            available to it and that the Federal Reserve Bank would hold the
            thrift’s collateral (nearly $4 billion).

7/3/2008    OTS presented a Cease and Desist Order that was not executed.
            The Order required IndyMac to (1) retain tier 1 core capital of 7
            percent and total risk based capital of 13 percent at December 31,
            2008, (2) accept no new loans in its retail and wholesale divisions,
            (3) within 20 days provide a business plan that returns the thrift to
            a safe and sound position, (4) execute a strategy that includes
            selling GSE reverse mortgages, retail banking operations, and
            mortgage servicing, (5) submit a liquidity plan, and (6) obtain
            approval from the regional director to issue dividends.

7/10/2008   FHLB San Francisco reduces IndyMac’s credit line by $80 million to
            $90 million.

7/10/2008   OTS’s Senior Deputy Director signed the decision memorandum (“S
            Memo”) to close IndyMac.

7/11/2008   IndyMac requested $750 million from Federal Reserve Bank and is
            granted $500 million.

7/11/2008   OTS closed IndyMac and FDIC was named as conservator.

7/14/2008   IndyMac Federal Bank, FSB, opened for business as an FDIC-
            operated institution.

            Material Loss Review of IndyMac Bank, FSB (OIG-09-032)         Page 62
                         Appendix 5
                         OTS IndyMac Examinations and Enforcement Actions



Date          CAMELS      Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating           (in   Examination 2001 - 2008
started                  millions)
4/16/2001     2/233222     $5732     Matters requiring IndyMac Bank (IndyMac) board attention
                                     •   Ensure that appropriate action is taken to address the deficiencies
Composite                                identified throughout the Report. Specific emphasis should be placed
Downgrade                                on: (1) implementing an effective internal asset review (IAR) system, (2)
8/24/2001     3/233222     $7425
                                         addressing underwriting concerns and ensuring appropriate appraisal
                                         functions for both Construction Lending Corporation of America, a
                                         division of IndyMac, and the Mortgage Bank, and (3) ensuring an
                                         adequate quality control function at the Mortgage Bank.
                                     •   Ensure that deficiencies related to the Asset Management Group’s
                                         practices and processes are appropriately addressed.
                                     Corrective actions to be taken by IndyMac
                                     •   Pending further guidance by Office of Thrift Supervision (OTS), ensure
                                         that all “low doc and no doc” loans that are not sold within 6 months of
                                         origination, or are repurchased after being sold, are risk weighted at 100
                                         percent for risk-based capital purposes.
                                     •   Review the entire land loan portfolio and ensure that the portions of land
                                         loans that exceed an 80.0 percent loan to value (LTV) ratio are
                                         appropriately deducted from risk-based capital.
                                     •   Ensure that all loans sold with recourse provisions as defined in the ROE
                                         are converted on balance sheet and properly risk weighted. Enhance
                                         internal systems to better identify recourse arrangement associated with
                                         asset sales.
                                     •   Adjust capital for assets considered impermissible real estate
                                         investments.
                                     •   Adjust capital as appropriate at June 30, 2001 for all items noted.
                                     •   Implement corrective action outline in memos provided to management
                                         during the examination.
                                     •   Ensure compliance with Interagency Uniform Retail Credit Classification
                                         and Account Management Policy.
                                     •   Divest acquisition, development, and construction loans determined to
                                         be impermissible at the Bank level. A divestiture plan should be included
                                         in the response, complete with a legal opinion to support that the plan
                                         complies with applicable regulations. Management should review the
                                         entire construction portfolio to ensure that all impermissible acquisition,
                                         development, and construction (ADC) loans have been removed from
                                         the Bank.
                                     •   Discontinue using aggregate retail value to determine LTV ratios;
                                         instead, ratios must be based on discounted appraised value per OTS
                                         regulations and Uniform Standard of Professional Appraisal Practice
                                         (USPAP) guidelines.
                                     •   Ensure the Post Purchase Quality Control maintains a timely review of
                                         single family residence (SFR) files and improves both the timeliness and
                                         accuracy of reviews.
                                     •   Provide a legal opinion to support that the Bank’s loan commitment and
                                         cap structures comply with loans to one borrower regulations.
                                     •   Address the examination’s concerns noted throughout the Report.
                                     •   Submit significant changes in the business plan to OTS for approval.
                                     •    Consider meeting more often than quarterly until all corrective actions
                                         have been implemented and verified effective.
                                     •    Correct deficiencies identified in the Asset Management Group and
                                         implement corrective actions provided in management’s written


                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                              Page 63
                         Appendix 5
                         OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS      Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating           (in   Examination 2001 - 2008
started                  millions)
                                         response dated June 14, 2001. Ensure independent verification of
                                         methodologies and processes by a source not affiliated with the Bank’s
                                         outside auditor.
                                     •    Amend the Investment Policy to exclude purchases of non-investment
                                         grade securities and residuals. Refrain from purchasing these securities
                                         unless OTS opines that they are permissible. The Bank should provide a
                                         legal opinion that supports their position.
                                     •    Enhance the Accounting Department’s independent review of internal
                                         security and residual valuations by contracting with an independent
                                         pricing service, or obtaining prices from at least 3 securities dealers.
                                     •    Amend the Pipeline Interest Rate Risk (IRR) policy limits to address net
                                         exposure, clarify the Benchmark exposure limit for adjustable rate
                                         mortgages (ARM), and assure that asset/liability committee (ALCO)
                                         monitoring reports are updated to reflect policy amendments.
                                     •    Expand efforts to obtain market data and support for manufactured
                                         housing servicing asset assumptions.

7/29/2002     2/232222     $7,112    Matters requiring IndyMac board attention
                                     •    Ensure actions are implemented to address the “corrective actions”
                                          detailed in the report of examination (ROE). If full corrections cannot be
                                          achieved by December 20, 2002, provide a detailed plan for attaining
                                          such corrections including targeted completion date.
                                     Corrective actions to be taken by IndyMac
                                     • Develop a capital plan that ensures that capital levels remain fully
                                        satisfactory in relation to the higher risk assets, operations, and planned
                                        growth. This plan should be discussed with and submitted to OTS for
                                        review prior to implementation.
                                     • Strengthen Home Builder Division (HBD) infrastructure to ensure that the
                                        approval, underwriting, and portfolio monitoring documents provide
                                        accurate information for management to make sound lending decisions
                                        and provide for accountability of analysts, account officers, managers,
                                        and executive management. Develop an action plan that provides
                                        timeframe for completing interim goals as well as the completion of the
                                        entire plan.
                                      • Enhance underwriting process to ensure that references to aggregate
                                        retail values are excluded, borrower and guarantor financial statements
                                        are analyzed completely, underwriting exceptions are identified along
                                        with mitigating factors, loan approval conditions are met, and loan
                                        underwriting phasing matches appraisal valuations.
                                      • Ensure that the appropriate enhancements are made to the IAR policies to
                                        reflect the changes in the structure, timely classification and charge-off
                                        of homogeneous loans, and other policy enhancements as outlined in the
                                        September 16, 2002 memorandum to management.
                                      • Continue the loan-by-loan review of the SFR portfolio to identify loans
                                        that are no longer bankable assets and should be charged-off. Provide a
                                        list of the loans identified and the amount charged-off.
                                      • Provide more guidance in the lending policy for defining Comparable
                                        Market Area when determining compliance with policy loan-to-value
                                        requirements for tract projects.
                                      • Ensure that periodic training is provided to SFR and Home Construction
                                        Lending (HCL) underwriters.
                                      • Develop a specific/comprehensive loan policy that covers all aspects of


                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                              Page 64
                         Appendix 5
                         OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS      Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating           (in   Examination 2001 - 2008
started                  millions)
                                           subprime lending.
                                         • Develop a consistent methodology for categorizing quality control
                                           exceptions.
                                         • Ensure that post-purchase quality control audits are completed in
                                            accordance with policy guidelines.
                                         • Correct the SFR data integrity issues related to incorrect FICO scores
                                            and loan-to-value ratios.
                                         • Ensure that all supporting allowance for loan and lease losses (ALLL)
                                            workpapers are readily available for review, the Board reviews the
                                            quarterly analysis, and that loans with specific reserves are included
                                            when calculating the loss factor as required in the interagency policy
                                            statement regarding ALLL.
                                         • Address weaknesses in management performance as noted in other
                                            sections of the Report.
                                         • Review and adjust the policy and procedure approval process so that the
                                            Board is appropriately involved in initial and periodic approval of key
                                            institution policies and procedures. Ensure that a clear audit trail of
                                            Board actions in this regard is maintained.
                                         • Incorporate alternative interest rate scenarios in the budget/strategic
                                            planning process by December 31, 2002.
                                         • Ensure the independent risk management function is improved and
                                            provides effective oversight of all subjectively valued assets.
                                         • Ensure that the modeling techniques are appropriate and adequate
                                            documentation is maintained for subjectively valued assets. Option
                                            adjusted spread used to construct discount rates should be documented
                                            using observable prices from market transactions including the bank’s
                                            own securitizations. Market convention should be used when deriving
                                            values for all illiquid investments such as the interest only commercial
                                            mortgage backed securities where the use of 100.0 percent conditional
                                            prepayment rate at the end of lockout or yield maintenance period is
                                            appropriate.
                                         • Consult with the OTS Regional Accountant regarding the appropriate
                                            number of impairment traunches to be used.
                                         • Enhance the usefulness of the finalized IRR results with institution
                                            specific deposit analysis and conduct analysis at more frequent
                                            intervals.

9/29/2003     2/222223    $10,611    Matters requiring IndyMac board attention
                                     •      At a minimum, maintain capital ratios at the year-end 2004 Strategic
                                            Plan projections (core capital 7.37 percent, Tier 2 capital 11.62 percent
                                            and Risk-Based capital 12.27 percent).
                                     •      Provide an update on management’s progress in implementing a revised
                                            capital planning process.
                                     •      Ensure the Audit Committee regularly reviews the status of audits,
                                            ensures that high risk audits are completed on schedule, and ensures
                                            that the 2004 audit plan is met.
                                     •      Prepare a revised strategic plan reflecting current and projected
                                            operations and submit for OTS review.
                                     •      Ensure actions are taken to address and correct the findings contained in
                                            the three memorandums noted in the “Corrective Actions” section of the
                                            Sensitivity comment. If full correction cannot be achieved by March 31,
                                            2004, provide a detailed plan for attaining such corrections including


                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                               Page 65
                         Appendix 5
                         OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS      Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating           (in   Examination 2001 - 2008
started                  millions)
                                         target completion date(s).
                                     Corrective actions to be taken by IndyMac
                                     •   At a minimum, maintain capital ratios at the year-end 2004 Strategic
                                         Plan projections (core capital 7.37 percent, Tier 2 capital 11.62 percent
                                         and Risk-Based capital 12.27 percent).
                                     •   Provide OTS with an update on management’s progress in implementing
                                         the revised capital planning process by February 27, 2004.
                                     •   Continue the underwriting training. Emphasize asset, income, and
                                         employment documentation, and continue to monitor the effectiveness
                                         of the internal training through the post purchase quality control
                                         function.
                                     •   Implement controls in the underwriting and appraisal review process to
                                         ensure improved appraisal quality. In addition, frequent appraisal errors
                                         should be communicated to IndyMac’s major appraisal providers.
                                     •   Properly document broker due diligence files to support the approval
                                         process and allow a third party reviewer to understand the rationale for
                                         approving the broker, particularly when the approval is outside of the
                                         established guidelines.
                                     •   By February 27, 2004, provide the Assistant Regional Director a report
                                         detailing the actions taken or planned to address all the Corrective
                                         Actions and findings memorandums that were provided to management
                                         during the examination.
                                     •   Continue the refinement and evolution of the Enterprise Risk
                                         Management process so that it can be relied upon in all areas, most
                                         importantly the oversight of the variable cash flow instrument (VCI)
                                         assets and hedging functions.
                                     •   On a regular basis, ensure the audit committee reviews the status of
                                         audits, ensures that high risk audits are completed on schedule, and that
                                         the 2004 audit plan is met.
                                     •   Prepare a revised strategic plan reflecting IndyMac’s current and
                                         projected operations and submit that plan to the Assistant Regional
                                         Director for review by March 31, 2004.
                                     •   Promptly address the recommendations as detailed in the memoranda
                                         provided during the examination that included (1) VCI Assessment and
                                         Compliance with Interagency Advisory on Mortgage Banking dated
                                         November 20, 2003, (2) Mortgage Servicing Rights and Interest Only
                                         Hedge Effectiveness and Performance dated November 21, 2003, and
                                         (3) Reconciliation of OTS and QRM Model Results dated November 19,
                                         2003.

11/15/2004    2/222223    $15,005    Matters requiring IndyMac board attention
                                     •   Provide OTS with corrective and follow-up information with regard to
                                         Market Risk Framework, the Board ALCO Hedge reporting, income
                                         modeling, prior examination findings, and home equity lines of credit
                                         securitizations, as outlined in various memorandums provided to
                                         management.
                                     Corrective actions to be taken by IndyMac
                                     •   Provide management’s attention to the ROE that discusses numerous
                                         recommendations made in Examiner Findings Memoranda that require
                                         management’s continuing attention to fully address.
                                     •   Continue the ongoing efforts to address the Compliance concerns of
                                         Financial Freedom to ensure correction of all violations and exceptions.


                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                             Page 66
                         Appendix 5
                         OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS      Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating           (in   Examination 2001 - 2008
started                  millions)
                                     •   Promptly address the recommendations as detailed in the following
                                         memorandums provided during the examination: (1) Market Risk
                                         Framework, dated January 3, 2005; (2).Board ALCO Hedge Reporting,
                                         dated January 4, 2005; (3) Income Modeling, dated January 4, 2005;
                                         (4) Prior Year Examination Findings, dated January 4, 2005; (5) Home
                                         Equity Line of Credit Securitizations, dated January 12, 2005; and (6)
                                         Reverse Mortgage Lending, dated January 12, 2005.

11/7/2005     2/222222    $18,274    Matters requiring IndyMac board attention
                                     •   Refine limits on certain asset concentrations relative to core capital.
                                     •   Submit revised 2006 financial projections.
                                     •   Provide Board assurance that the corrective actions planned to resolve
                                         audit and compliance issues at Financial Freedom (reverse mortgage) will
                                         be effectively overseen.
                                     •   Implement recommendations relative to the quarterly liquidity stress
                                         analysis.
                                     •   Provide assurances for the company-wide build-out of the thrift’s market
                                         risk framework as described in the IRR Master Policy.
                                     •   Implement a periodic net income stress analysis.
                                     •   Establish a risk management trigger for basis risk using stress scenarios.
                                     Corrective actions to be taken by IndyMac
                                     •   Submit to OTS for review the recast 2006 financial projections,
                                         including projected core and risk-based capital ratios.
                                     •   Establish more refined exposure limits relative to core capital for
                                         nontraditional mortgage loans, Alt-A mortgage loans, and certain
                                         geographic loan concentrations.
                                     •   Request management and the Board’s assurance that the continued and
                                         planned corrective action to address all deficiencies noted in the internal
                                         audit reports, to improve operations, and to enhance the compliance
                                         program of Financial Freedom (reverse mortgages) will be effectively
                                         overseen and implemented.
                                     •   Request that management provide regular reviews of progress in
                                         addressing these items at the quarterly regulatory update meetings.
                                     •   Implement recommendations pertaining to the quarterly Liquidity Stress
                                         Analysis.
                                     •   Continue the build-out of the Bank’s market risk framework. OTS
                                         expectation is for the risk measures to be applied in aggregate at the
                                         Bank-wide level and sub-allocated, as appropriate at the individual
                                         business unit level as described in the IRR Master policy.
                                     •   Develop and implement a periodic net income stress analysis.
                                     •   Establish a risk management trigger for basis risk using stress scenarios.

1/8/2007      2/222222    $26,501    Matters requiring IndyMac board attention
                                     •   For the Conduit Division, provide actions taken (1) to address the
                                         internal audit findings noted in the 2006 and 2007 internal audits, (2) to
                                         improve the internal control environment, and (3) to ensure the Division
                                         develops more robust, transparent management reports.
                                     •   Ensure management re-evaluate senior management employment
                                         contracts and ensure that the incentive compensation component is
                                         weighed in accordance with the employee’s responsibilities.
                                     •   Ensure the new forecasting process is implemented.


                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                              Page 67
                         Appendix 5
                         OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS      Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating           (in   Examination 2001 - 2008
started                  millions)
                                     Corrective actions to be taken by IndyMac
                                     •   Ensure the Conduit Division corrects the internal audit findings noted in
                                         the last report and ensure the Division is operating in a strong internal
                                         controls environment. In addition, the Division must develop more
                                         robust, transparent management reports.
                                     •   Establish a policy and related procedures for the identification and
                                         classification of troubled collateral dependent loans.
                                     •   Refine current ALLL practices or introduce new methodologies to take
                                         advantage of more robust data and improve forecasts.
                                     •   Ensure that the Board and management re-evaluate senior management
                                         employment contracts and ensure that the incentive compensation
                                         component addresses all significant aspects of the employee’s
                                         responsibilities.
                                     •   Ensure the new earnings forecasting process is implemented.
                                     •   Revise the liquidity policy to reflect Treasury meetings as acceptable
                                         substitutes for capital funding and liquidity committee meetings.
                                       • Develop and implement thrift-wide risk measures and sub-allocate, as
                                         appropriate, to all individual business units.

1/7/2008      5/454554    $31,293    Matters requiring IndyMac board attention
                                     • Return the Bank’s capital ratios to a level that supports its risk profile.
                                     • Provide the OTS with a forecast that includes a range of capital necessary
                                       to achieve and maintain sufficient capital ratios until implementation of
                                       the new strategic plan can provide income at a level that will support the
                                       Bank operations.
                                     • Ensure that liquidity strategies are in place to manage the Bank’s inability
                                       to access high-rate brokered deposits, and if additional restrictions are
                                       placed on Federal Home Loan Bank Board (FHLB) and Federal Reserve
                                       Bank (FRB) borrowing limits.
                                     • Develop a clear strategy including scripts for media and customer
                                       inquiries to minimize effects of public disclosure of capital position and
                                       potential run on deposits.
                                     • Ensure that timely valuations are obtained for problem loans and that
                                       sufficient adjustment is made to address declining real estate values.
                                     • Provide the OTS with a detailed plan for reducing the level of classified
                                       and non-performing assets.
                                     • Provide OTS with a detailed business plan and budget supporting the new
                                       Government Sponsored Enterprise oriented business model, or any
                                       alternative business strategy. The pro-forma plan should include monthly
                                       income and expense items demonstrating that sufficient income can be
                                       generated to provide sufficient returns on capital to ensure viable
                                       operations.
                                     • Provide monthly variance reports to the OTS on the above plan on a
                                       monthly basis.
                                     • Ensure that all significant risks are identified, quantified, monitored and
                                        controlled to preserve the safety and soundness of the institution.
                                     • Ensure adequate resources are available to provide support and
                                       documentation for assumptions used in risk management models,
                                       valuation models, and information submitted to OTS for the Thrift
                                       Financial Report.
                                     Corrective actions to be taken by IndyMac
                                     • Augment capital to ensure that it supports the Bank’s risk profile.


                         Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                             Page 68
                       Appendix 5
                       OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS    Assets         Significant safety and soundness corrective actions cited in Reports of
examination   rating         (in       Examination 2001 - 2008
started                millions)
                                       •   Provide forecast that includes a range of capital necessary to achieve and
                                           maintain sufficient capital ratios until implementation of the new strategic
                                           plan can provide income at a level that will support the Bank operations.
                                       •   Implement additional controls in Thrift Financial Report reporting to
                                           strengthen the quarterly compilation process.
                                       •   Develop a formal plan for reducing the level of classified assets, including
                                           the level and concentration of problem HBD loans.
                                       •   Ensure that timely valuations are obtained for problem loans and that
                                           sufficient adjustment is made to address declining real estate values.
                                   •        Ensure independent IAR audits of HCL and HBD are conducted at least
                                           quarterly by internal IAR staff or through third party review.
                                       •   Ensure resource sufficiency to conduct thorough internal asset reviews.
                                       •   Revise the HCL scoring matrix to ensure that all modified loans are
                                           evaluated for review and classification purposes in a timely manner.
                                       •   Ensure concentration limits are consistent with current business
                                           objectives and portfolio risks.
                                       •   Ensure that all significant risks are identified, quantified, monitored and
                                           controlled to preserve the safety and soundness of the institution.
                                       •   Ensure adequate resources are available to provide support and
                                           documentation for assumptions used in risk management models,
                                           valuation models, and information submitted to OTS for the Thrift
                                           Financial Report.
                                       •   Enhance the forecasting process to include worst case scenarios and
                                           contingency plans.
                                       •   Within 90 days, develop a one year-and a three-year strategic plan that
                                           provides for a detailed outline of the goals and objectives of the Bank and
                                           how it will meet those goals and objectives. The plan must include
                                           detailed financial projections for the period of the plan. In addition to a
                                           base scenario, the plan should include alternative scenarios that reflect
                                           best- and worst-case scenarios, including a scenario that projects
                                           continued contraction of the housing market for the next several years.
                                       •   By August 1, 2008, develop monthly financial projections for the
                                           remainder of 2008. The Bank will submit monthly variance reports to the
                                           OTS within 30 days of month end. Any adverse variance in excess of 5
                                           percent of the projected amount shall be explained in writing. All
                                           changes to the monthly projections must receive the written approval of
                                           the Regional Director.
                                       •   By September 15, 2008, develop quarterly financial projections for 2009
                                           and submit quarterly variance reports within 25 days of quarter end. As
                                           with the variance reports for 2008, any adverse variance in excess of
                                           five percent of the projected amount shall be explained in writing and any
                                           changes to the projections must be approved by the Regional Director, in
                                           writing.
                                       •   Develop a contingency plan to ensure uninterrupted funding should the
                                           Bank become unable to access broker deposits.
                                       •   Develop plans for responding to media and customer inquiries regarding
                                           the Bank’s ability to meet funding obligations.
                                       •   Conduct a review of existing documentation for all high risk models by
                                           September 30, 2008, and require updates from model owners, as
                                           needed.
                                       •   Maintain, on an ongoing basis, a value at risk white paper that lays out
                                           the current model theory and methodology, as well as key assumptions.


                       Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                                   Page 69
                       Appendix 5
                       OTS IndyMac Examinations and Enforcement Actions


Date          CAMELS    Assets     Significant safety and soundness corrective actions cited in Reports of
examination   rating         (in   Examination 2001 - 2008
started                millions)
                                   •   Seek confirmation from other model owners that adequate documentation
                                       will be maintained on an ongoing basis.
                                   •   Require Business Unit owners to certify that model documentation is up-
                                       to-date and complies with the Model Review Policy.
                                   •   Improve data transparency and access, which will improve the Asset
                                       Liability Management Group’s ability to provide greater levels of details
                                       and facilitate more detailed analysis.
                                   •   Increase pricing and valuation cohorts used in the Bank’s IRR model
                                       (management migrated most of its loan portfolios to PolyPaths thereby
                                       increasing pricing and valuation cohorts).
                                   •   Grant review and approval authority over the cohorts to CIRRG’s Model
                                       Research and Review Group to provide independent confirmation that the
                                       cohorts accurately capture the characteristics of the portfolio.




                       Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                            Page 70
                       Appendix 6
                       Examples of Delinquent Loans and Underwriting Weaknesses


                       This appendix includes a detailed discussion of four IndyMac-
                       originated loans that we reviewed. These loans illustrate the
                       weakest underwriting practices we observed in the sample of 22
                       loans we reviewed. The reviewed loans were delinquent 90 days or
                       more as of August 31, 2008.

                       Loan 1

                       On May 2, 2007, IndyMac approved a $926,000 stated income
                       loan for the borrower, which was secured by a one acre lot in
                       Delray Beach, Florida. The loan was an adjustable rate mortgage
                       with a 5-year term and a beginning interest rate of 5.875 percent,
                       which was subject to change monthly. The purpose of the loan
                       was to pay off a loan the borrower obtained from another lender to
                       acquire the property and also to provide funds to build a house.
                       The amount owed on the prior loan was approximately $919,000.

                       As a stated income loan, IndyMac performed no verification of the
                       borrower’s self-employment income of $50,000 a month
                       ($600,000 annually). IndyMac also did not verify the borrower’s
                       assets. The loan file contained a copy of a signed request by the
                       borrower to the Internal Revenue Service (IRS) for copies of past
                       tax returns, but we found no evidence that IndyMac ever obtained
                       the tax returns. According to an IndyMac official,11 IndyMac had
                       borrowers sign such requests as a “scare tactic,” assuming that
                       they would be more forthcoming on their stated income. In
                       practice, however, we were told that IndyMac seldom forwarded
                       the signed requests on to the IRS.

                       The loan file contained an appraisal which indicated that the
                       property value was $1.43 million. This value was based on
                       comparable properties that had been improved with single family
                       residences. However, the comparable properties were located
                       closer to the ocean and bay, and their values were based on listing
                       price instead of the actual selling price. The appraised value also
                       did not take in consideration a slowdown in the real estate market.


11
   The IndyMac official we interviewed about this loan and the other loans discussed in the appendix
held the title of First Vice President, Quality Control – Enterprise Risk Management. At the time of our
interview, the official held a similar position with IndyMac Federal Bank, FSB, the successor institution
being operated by the Federal Deposit Insurance Corporation as conservator.

                       Material Loss Review of IndyMac Bank, FSB (OIG-09-032)                      Page 71
Appendix 6
Examples of Delinquent Loans and Underwriting Weaknesses


We saw no evidence in the loan file that IndyMac resolved these
and other anomalies with the appraisal.

The borrower made payments totaling $5,389 before defaulting on
the loan. The unpaid principal and interest at the time of
foreclosure totaled approximately $1.01 million. At the time of our
review, the property was listed for sale for an asking price of
$599,000.

Loan 2

In November 2007, IndyMac approved a $3 million stated income
loan, secured by the borrower’s primary residence in Scottsdale,
Arizona. The loan proceeds were used to refinance the primary
residence which the borrower had owned for 11 years and reported
its value as $4.9 million.

As a stated income loan, IndyMac performed no verification of the
borrower’s reported self-employment income of $57,000 a month
($684,000 annually). Contrary to IndyMac policy, the borrower
selected the appraiser who appraised the property at $4.9 million.
Notes in the loan file indicated that the borrower had listed the
property for sale in November 2006, first at a price of $4.9 million
that was later reduced to $4.5 million before the borrower pulled
the property off the market. Despite this, the appraiser concluded
that the value of $4.9 million appeared to be reasonable. IndyMac
accepted the appraiser’s value based on a review of online sale and
public records. It did not physically inspect the property.

The borrower made no payments on the loan before default. The
total delinquent loan amount as of November 2008 was
$3,015,625. According to the IndyMac official, the property sold
in October 2008 for $2.0 million.

Loan 3

In February 2007, IndyMac provided the borrower a stated income,
80/20 loan, for a combined total of $1.475 million, to purchase a
property in Marco Island, Florida. The combined loan equaled the
appraised value of the property.



Material Loss Review of IndyMac Bank, FSB (OIG-09-032)        Page 72
Appendix 6
Examples of Delinquent Loans and Underwriting Weaknesses


As a stated income loan, IndyMac performed no verification of the
borrower’s reported income of $28,500 a month ($342,000
annually). For 80/20 loans, IndyMac allowed an
$800,000/$200,000 maximum loan amount and a maximum
combined loan amount of $1 million. This loan was an exception to
IndyMac policy as the combined loan amount of $1,475,000
exceeded the maximum combined loan amount. The loan exception
was approved anyway.

Various appraisals in the loan file contained significant differences
with no indication of how they were resolved by IndyMac. A
January 2007 appraisal valued the property at $1.48 million. A
valuation analysis prepared by an IndyMac employee on
January 25, 2007, stated that the skill level of the appraiser was
unacceptable—the appraiser had not provided accurate comparable
properties to the subject property and did not accurately consider
the location of the property. The IndyMac employee estimated the
property value at $1 million and recommended that another
appraisal be obtained. Another note in the loan indicated that the
IndyMac official overruled the employee’s recommendation and the
appraisal was accepted. The IndyMac official, however, adjusted
the appraised value approximately 10 percent lower, to $1.33
million, citing as a justification that a property on the same street
had sold for $1.97 million.

The borrower made no payments before defaulting on the
combined $1.48 million loans. According to the IndyMac official,
the borrower deeded the property to the thrift in lieu of foreclosure.
The IndyMac official estimated in November 2008 that the property
was worth about $700,000.

Loan 4

As illustrated by this example, IndyMac was originating high-risk
loans early in its existence. According to an IndyMac official, this is
perhaps IndyMac’s largest loss from a single loan, estimated to be
as large as $2.3 million.

In April 2002, IndyMac approved the borrower for a stated income
home equity line of credit of $550,000. This line of credit was in
addition to a 80/20 loan for $3 million that the borrower already


Material Loss Review of IndyMac Bank, FSB (OIG-09-032)          Page 73
Appendix 6
Examples of Delinquent Loans and Underwriting Weaknesses


had with IndyMac. The borrower reported that the property was
worth $5.2 million.

As a stated income loan, IndyMac performed no verification of the
borrower’s reported gross income of $95,000 a month ($1.14
million annually) as the owner/manager of a limited liability
corporation. The loan notes history did not indicate how IndyMac
resolved negative information revealed in credit reports on the
borrower. Two credit reports obtained in March 2002 listed serious
and frequent delinquencies. An earlier credit report had noted a
discrepancy with the borrower’s social security number.

Various appraisals in the loan file also contained significant
discrepancies with no indication of how they were resolved by
IndyMac. Specifically, the appraisal for the original 80/20 loan,
dated in October 2001, valued the property which the appraisal
described as new construction at $5.2 million. This same value
was reported by a second appraisal dated in March 2002. A third
appraisal, dated in April 2002, placed the market value of the home
at $508,500. The appraisal stated that the home was less than ½
mile from a hazardous waste facility. A fourth appraisal, also
prepared in April 2002, valued the property at $730,000, with the
lowest reasonable value at $590,000 and the highest reasonable at
$900,000. This appraiser also reported that the home was built in
1959.

The borrower made payments totaling about $11,000 before
defaulting on the $550,000 home equity line of credit loan.
According to the IndyMac official, the thrift was able to recover
approximately $600,000 on both loans. Funds were recovered in
part from the title company and in part from two different
appraisers.




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)       Page 74
Appendix 7
Management Response




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)   Page 75
Appendix 7
Management Response




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)   Page 76
Appendix 7
Management Response




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)   Page 77
Appendix 8
Major Contributors to this Report




Department of the Treasury, Office of Inspector General

Boston Audit Office

Sharon Torosian, Audit Manager
Maryann Costello, Auditor-In-Charge
Timothy Cargill, Auditor
Jeanne Degagne, Auditor
Jason Madden, Auditor

Washington, DC

Cynthia Milanez, Referencer

Federal Deposit Insurance Corporation, Office of Inspector General

John Colantoni, Senior Audit Specialist
Titus Simmons, Senior Audit Specialist




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)       Page 78
Appendix 9
Report Distribution


Department of the Treasury

   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Office of Thrift Supervision
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner

Federal Deposit Insurance Corporation

   Chairman

United States Senate

   Chairman and Ranking Member
   Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Financial Services

Comptroller General of the United States

   Acting Comptroller General




Material Loss Review of IndyMac Bank, FSB (OIG-09-032)   Page 79
